<html>
<title> - UNDERSTANDING THE NEEDS OF CHILDREN AND FAMILIES ESPECIALLY DURING TIMES OF MILITARY DEPLOYMENT</title>
<body><pre>[Senate Hearing 108-123]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-123

  UNDERSTANDING THE NEEDS OF CHILDREN AND FAMILIES ESPECIALLY DURING 
                      TIMES OF MILITARY DEPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING HOW EFFECTIVE THE ARMY HAS BEEN IN MAKING IT EASIER FOR 
  MILITARY FAMILIES RAISING CHILDREN AND TO DETERMINE WHAT ADDITIONAL 
        CHANGES CAN BE MADE TO FURTHER ASSIST MILITARY FAMILIES

                               __________

                    JUNE 2, 2003 (FT. CAMPBELL, TN)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



88-152              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                          Monday, June 2, 2003

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     1
Summers, Col. Kim, U.S. Army, Garrison Commander, Ft. Campbell, 
  TN; Holly Petraeus, Spouse of Commander, 101st Airborne 
  Division, Ft. Campbell, TN; Maj. Josie Fees, Deputy Director, 
  Child and Youth Services, Ft. Campbell, TN; Willa Garrett, 
  Youth and Family Services, Ft. Campbell, TN; and Robert Vail, 
  Director, Community Activities Business Center, Ft. Campbell, 
  TN.............................................................     4
Dolinish, Maj. Joyce, U.S. Army (Ret.), 101st Corps Support 
  Group; Gricell Medley, Family Readiness Group (FRG) Volunteer, 
  Spouse of Deployed Soldier, Clarksville, TN; and First Sergeant 
  Hughes, National Guard Representative, 776th Maintenance 
  Company, Ft. Campbell, TN......................................    18

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Col. Summers.................................................    34
    Ms. Petraeus.................................................    35
    Maj. Fees....................................................    37
    Willa Garrett................................................    38
    Mr. Vail.....................................................    40
    Maj. Dolonish................................................    43
    Ms. Medley...................................................    44
    Ms. Taylor...................................................    45

                                 (iii)

  

 
  UNDERSTANDING THE NEEDS OF CHILDREN AND FAMILIES ESPECIALLY DURING 
                      TIMES OF MILITARY DEPLOYMENT

                              ----------                              


                          MONDAY, JUNE 2, 2003

                               U.S. Senate,
             Subcommittee on Children and Families,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee was convened, pursuant to notice, at 1 
p.m., at the Eagles Conference Room, Building 2607, Tennessee 
Ave., Ft. Campbell, TN, the Senator Alexander, (Chairman of the 
Subcommittee), presiding.
    Present: Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Welcome. I'm Lamar Alexander and this is 
a hearing of the U.S. Senate Subcommittee on Children and 
Families. I'm delighted to be at Fort Campbell today and I want 
to thank the witnesses who are here today. I want to thank 
Colonel Ruggley particularly. He has been Garrison Commander 
for 3 hours.
    So we've come on a very busy day for him and I'm delighted 
that he's here. And we've had a chance to have lunch together 
with Colonel Summers and I thank you very much for that.
    The way we will proceed is we have two panels of witnesses. 
And what I would like to do is to make a brief opening 
statement, which won't take long, and then I'd like to just go 
right down the list. We will start with Colonel Summers. 
Colonel Summers and Mrs. Summers have a 9-hour drive to Fort 
Leavenworth, which they're to begin as soon as he finishes 
testifying today.
    When he finishes, I may ask him two or three questions and 
then excuse him so he can get started on that long drive. And 
then I'll ask the four of you to give just your testimonies, 
and when you're finished, I'll listen to all four, and then 
after that will give us some time for back and forth. I think 
that will make for the best discussion.
    And we will end the first panel by 2:00 and then we will go 
to the second panel at 3:00, and we will finish the entire 
hearing at least by 4:00 if that fits everyone's schedule.
    I'd like to introduce a couple of people who are here with 
me. Margarite Sallee is the staff director for the Children and 
Families Subcommittee and she is right here. Kristin Bannerman 
is a legislative assistant on my Senate Staff specializing in 
education. I'm going to make my opening statement now, and then 
we will proceed to Colonel Summers.
    The United States Army is today more of a married Army. 
Over half our active duty service members are married, and 
nearly half of the men and women in the military today are 
parents raising children. Three-quarters of married families 
have dependent children living at home.
    So what I guess we could say about today's Army is that 
there are more missions, there are fewer soldiers, there are 
more women, there are more spouses working away from home, and 
there are more children. And we're here today to talk about 
that, about military parents raising children.
    Military men and women choose their profession, they choose 
to marry, but as Colonel Summers said to us a little earlier 
today at lunch, this is a matter of readiness. Family readiness 
has everything to do with military readiness. In order to 
continue to attract and retain the most talented men and women 
in our volunteer Army and all of our Armed Services, we need to 
do whatever we can to make it easier for military parents 
raising children. And all of society benefits when children 
grow up in a strong, nurturing, and attentive family.
    We're holding the hearing here at Fort Campbell to see how 
well the Army has done in making it easier for military 
families raising children and to see what can be done better. 
And I want to compliment each of you for your very honest and 
direct testimony. You're very proud of what has been done and 
you have some suggestions about what can be done better.
    We will be talking about schooling, housing, child care, 
health care, pay, taxes, frequent moves, deployment, 
reintegration, that is when men and women come back from 
lengthy tours, and how they integrate with their families and 
in the communities. All of these issues impact on our services' 
readiness, as well as just the individual family.
    We have to remember that when we're talking about just 
under a half million men and women in the active duty Army, 1.2 
million family members are affected by every policy and every 
decision. Today we will hear from several members of this 
family. We will hear from Colonel Kim Summers who was Garrison 
Commander at Fort Campbell until today. We will hear from those 
involved in child care and education.
    I had an opportunity this morning to visit the child care 
center which is a superb center, obviously quality child care, 
and to visit the Family Assistant Center. We will have family 
members of those who are currently overseas. Holly Petraeus, 
who is the wife of the Commander of 101st Airborne and I might 
add has a significant background in her own right, will 
testify. It's important to come here to hear from those who are 
living the military life and to hear from those who are working 
to provide for military families.
    Let me say a word about our larger mission here. The 
Children and Families Subcommittee intends over the next couple 
of years to take a broad look at how Federal policies, laws, 
and regulations affect all Americans raising children, because 
we're all served better if families are strong and parents are 
healthy. Too many Federal policies from taxation to work life 
have made it harder for parents raising children and not 
easier. We're starting with military families raising children 
first because the military usually does things better than the 
rest of American society, and second, because it's a big 
integrated unit that's been in the news over the last several 
months and we want to focus on military families as a unit.
    We have four United States Senators who are doing what I'm 
doing. Senator Saxby Chambliss who is chairman of the Personnel 
Subcommittee of the Armed Services Committee is at Warner 
Robins Air Force Base in Georgia today having this similar 
hearing.
    Then our two subcommittees, the Personnel Committee and our 
Children and Families Subcommittees will join together on June 
19th in Washington DC. to compare what we have found and to 
further advance the discussion. The ranking Democrats on those 
two committees, Senator Dodd of Connecticut and Senator Nelson 
of Nebraska are also going to be holding hearings between now 
and June 19th.
    So we will have four United States Senators holding 
hearings in their home states on the issues that affect parents 
raising children, then bringing all that to Washington DC. on 
June 19th to see what we can put the spotlight on and what we 
can do to improve things.
    Senator Alexander. I want to thank you for having me on the 
post here today and for the courtesy that you've already shown, 
and now I want to call on Colonel Summers. I suggested, by the 
way, and I hope this is all right with all the witnesses, I 
have your statements, I've read them all, I've commented on 
them. I would suggest that you spend about five to 7 minutes on 
your statement, and that will leave us some time for questions 
back and forth. We will put your full statement in the record, 
but if you could summarize it in five or 7 minutes, that would 
be a big help.
    Colonel Summers has served on multiple bases, both here in 
the United States, as well as in Korea. He's been to Fort 
Leavenworth before, where he is going today. How many places 
did you say you had served?
    Colonel Summers. This will be our 22nd move.
    Senator Alexander. 22nd move in how many years?
    Colonel Summers. In 25 years, sir.
    Senator Alexander. 22nd move in 25 years. So compliments to 
Mrs. Summers. In addition to his studies at the University of 
Nebraska and Colorado, he attended the Army War College, served 
in Desert Storm and Shield, he's Commander of the U.S. Army 
Garrison at Fort Campbell, or has been until today, and he has 
served as a Master Army Aviator and Parachutist. Colonel 
Summers, thank you for your hospitality. I look forward to your 
comments.

    STATEMENTS OF COLONEL KIM SUMMERS, U.S. ARMY, GARRISON 
    COMMANDER, FORT CAMPBELL, TN; HOLLY PETRAEUS, SPOUSE OF 
 COMMANDER, 101ST AIRBORNE DIVISION, FORT CAMPBELL, TN; MAJOR 
  JOSIE FEES, DEPUTY DIRECTOR, CHILD AND YOUTH SERVICES, FORT 
  CAMPBELL, TN; WILLA GARRETT, YOUTH AND FAMILY SERVICES, FT. 
 CAMPBELL, TN; AND ROBERT VAIL, DIRECTOR, COMMUNITY ACTIVITIES 
               BUSINESS CENTER, FORT CAMPBELL, TN

    Colonel Summers. Thank you, sir. Senator Alexander, I'd 
like to take this opportunity to thank you for allowing me to 
speak to these critical issues. As the Garrison Commander of 
Fort Campbell for the past 2 years, I have observed many facets 
of these questions and hope to provide an informative 
perspective.
    Fort Campbell is the home to some 24,916 soldiers and 
supports 14,700 Reservists and National Guardsmen, 46,177 
family members, and over 124,000 retirees. The Installation 
encompasses a little over 105,000 acres and borders two states 
and four counties. Our association and relationship with the 
local communities is top notch. In my 25 years of service, I 
have seen none better. As a result of the extraordinary 
relationship and these communities' genuine care for soldiers, 
our community support structure is second to none. An example 
is the joint commitment of both the Christian County and 
Montgomery County school systems who teamed up with our own on-
post schools in adopting the Secondary Education Transition 
Study Program more than a year ago. This program has made it 
much simpler and smoother for high school students of military 
families to transfer between duty stations and duty assignments 
and associated schools without disadvantaging the student 
academically.
    The Chain of Command. That Chain of Command, better known 
as the Rear Detachment, is staffed with dedicated leaders at 
every level. The Rear Detachment structure and its high quality 
soldiers illustrate the steadfast dedication to excellence our 
deployed commanders place on insuring our families are properly 
cared for.
    But with all the successes and magnificent support from 
Congress, our communities, the Army, the Post systems, we do 
have areas that need attention, specifically, respite care 
availability and facilities. Due to deployments, families 
become single-parent households instantly. Even though our 
systems and facilities are in place to support the family, we 
lack enough capability to handle short-term child care on a 
recurring basis. Before the deployment, both parents would work 
the schedule. During deployments, that flexibility is gone. The 
problem is magnified with special needs children. We have one 
parent doing the job of two is the bottom line. If we could 
enhance the availability of respite care resources, it would 
qualitatively and quantitatively improve our family support.
    The second area is that of resources to facilitate 
improvement in our family support system. Dedicated facilities 
on Fort Campbell are at a premium, but dedicated family support 
facilities are necessary in order to provide a place for the 
myriad of family readiness/family support tasks to be 
accomplished. From FRG flyers to producing event calendars, 
having meeting space and providing child care are all 
requirements for successful programs. The Installation provides 
for these needs, but not to the level we would expect for such 
an important part of soldier readiness.
    Unit areas are restrictive and often not available. Even 
though the Installation provides space for our Family Readiness 
Groups, the competition to support units and other priorities 
is so intense that it makes sense to consider a new facility 
for family support.
    Sir, in conclusion, our support structure is critical in 
maintaining soldier readiness. I personally and professionally 
am very proud of what Fort Campbell does in that effort. Our 
surrounding communities have embraced our soldiers and families 
like none other. This teamwork and mutual support is proof we 
are progressing in this effort. Fort Campbell is a wonderful 
place to live, work, and play. When our soldiers are called to 
duty in a distant land, with the continued help from all, Fort 
Campbell will rise to the occasion and insure our family 
readiness will be every bit as high as the readiness of our 
soldiers. Thank you
    [The prepared statement of Colonel Summers may be found in 
additional material.]
    Senator Alexander. Thank you, Colonel. If I may ask a 
couple of questions. You partly answered this and let me give 
you a chance to talk a little bit more about it. You've been 
here now a couple of years.
    Colonel Summers. Yes, sir.
    Senator Alexander. You've seen the needs here of a very 
active post. If you had to wave a magic wand and do one thing, 
would it be the resources that you've talked about in your 
statement, would it have to do with the Family Resource Center, 
and explain what you have in mind why that would be needed.
    Colonel Summers. Yes, sir. To answer the first part of your 
question, absolutely. The Family Readiness Center is solely 
devoted to the Family Readiness Groups and their multi tasks 
and their missions, as well as resources available to them 
provided by our Army would be one area where I think it would 
have a tremendous benefit to not only family readiness, but 
obviously the soldier readiness.
    Family Readiness is a tremendous program, and a facility 
dedicated to that would help with the efficiency of execution 
of that program insuring that we do provide all the services in 
a manner in which the Family Readiness Group, as well as the 
soldiers, would meet and use in the future.
    Senator Alexander. Talk a little bit, if you will, about 
the need for what you call respite care. That's for parents who 
need a break, need a little time off. It may be--an hour, or a 
half day, or a day; is that my understanding of it?
    Colonel Summers. Yes, sir. And that's right on target. 
Respite care is a program in which a family member, as I said 
in the testimony, where they become instant single-parent 
families, where it becomes necessary for them to have some sort 
of an outlet for whatever reason to include appointments, those 
kind of taskings.
    So respite care is absolutely critical for providing not 
only the time, but also the capability to be able to handle and 
continue with their family functions as a single parent.
    Senator Alexander. In respite care, who pays for the 
respite care?
    Colonel Summers. Currently we provide it free of charge.
    Senator Alexander. As you've looked over the last 10 years, 
let's say from the previous Gulf War, Desert Storm, to today, 
have you seen changes in the Army's attitude toward family 
support efforts?
    Colonel Summers. Sir, I think it's been a continual 
evolution of that support structure. From that, we took some 
very significant lessons learned very early on, especially from 
the first Gulf War, and applied those across our Army. The Army 
itself obviously takes family support and family readiness 
very, very seriously, and as a portion of our soldier 
readiness.
    The programs that they have instituted over time have 
everything from the Family Assistance Center, which is in fact 
part of our deployment process, to Family Readiness Centers 
that devote themselves solely to the support of Family 
Readiness Groups. I think it's proof positive of how serious 
and supportive that our Army really is in those kinds of 
programs.
    Senator Alexander. You said yourself--others might say, if 
you join the Army, you choose to do that, it's a volunteer 
Army, and if you choose to marry, that's volunteer, you would 
expect that there would be perhaps long deployment, separation 
from a family. What do you say in response to those who might 
say that we're putting too much emphasis on the issue of family 
readiness, long deployments, and the effect of other aspects 
that surface in the Army on parents raising children?
    Colonel Summers. Sir, I would say the first portion of that 
is that I don't think we can put too much emphasis on the 
family readiness in and of itself because of its criticality to 
our overall soldier and unit readiness. I think it's a constant 
effort in order to make sure that we're basically getting at 
those needs of our soldiers and our families.
    As far as the Army and its deployments, I think that it's a 
wonderful place to work, it's a wonderful place to live. The 
Army truly does take care of its own and we will continue to 
make improvements over time as to--obviously with meetings like 
this and hearings like this, but continue to make improvements 
over time to continue our evolution on supporting our families. 
It is critical and it is something that we need to continue on 
with.
    Senator Alexander. Colonel Summers, thank you very much for 
your testimony. We will make your whole statement part of the 
record and your answers and suggestions have been very helpful. 
And I know that in your new post command at Fort Leavenworth, 
that you'll continue this interest. I look forward to hearing 
from you if you have further suggestions about what we should 
be doing.
    Colonel Summers. Thank you very much, sir.
    Senator Alexander. Drive safely.
    Colonel Summers. I appreciate that very much.
    Senator Alexander. Thank you.
    We will move your chair out and I'll go to Ms. Petraeus. 
I'll ask Holly Petraeus to say in her own words how many places 
she has lived when she begins her testimony. But there's been a 
lot of places and I've been impressed how each of those places 
she has taken on a leadership role at her station.
    She has been awarded the Department of Army's Outstanding 
Civilian Service Medal, she's the wife of the Commanding 
General of this post, who's being honored for his service in 
Iraq, and last I heard, still there. I saw her a few weeks ago 
at a luncheon here in honor of volunteers who helped with 
family support.
    So Ms. Holly Petraeus, thank you for being here, and 
particularly because of your background and the number of posts 
that you've seen, I look forward to your testimony,
    Could you tell us how many different places that you have 
lived in the Army.
    Ms. Petraeus. Well, since I've married, I've moved about 16 
times in 29 years, but I was also an Army daughter growing up, 
so I think the total is somewhere around 25 or 26 moves total.
    Senator Alexander. Does anyone keep up with the records?
    Ms. Petraeus. The only time we have to remember is when my 
husband does his security clearances. We have to go look up all 
those old addresses.
    Senator Alexander. Oh, that's right. Well, thank you very 
much for being here. I look forward to hearing your testimony.
    Ms. Petraeus. Thank you, Senator Alexander. I am here today 
to speak to you as an Army wife of almost 29 years. You've 
asked, ``How has the Army taken care of its soldiers' families 
during this deployment?'' My experience here at Fort Campbell 
has been a very positive one. The key element has been good 
communication between the deploying units, the military and 
civilian staff remaining here at Fort Campbell, and the 
volunteer Family Readiness Group or FRG leaders.
    Among the military remaining here on post, the Installation 
commander has conducted bi-weekly information meetings with 
senior spouses and key FRG leaders. These have been a great 
venue for bringing up issues that concern us, and for hearing 
what the Installation is doing to address those issues.
    Also, the post hospital has been very responsive to family 
concerns. The five chaplains who remain here have done a 
wonderful job offering deployment-related counseling and also 
running a very successful charitable effort, Operation Helping 
Hand, which is used to help family members where Army Emergency 
Relief cannot.
    On the DOD civilian side, the people in Army Community 
Services have been super. They run our Family Assistance 
Center, a one-stop shopping for family members who need 
assistance while the soldiers are deployed. They also 
coordinate deployment-related training, such as Army Family 
Team Building.
    Morale, Welfare, and Recreation has worked with local 
charities and sponsors to provide some very well-attended free 
family functions, such as monthly family fun fairs. Our Fort 
Campbell schools have not only addressed deployment-related 
issues with their own students, but have provided the local 
off-post school systems with training.
    I have to mention also the invaluable service of our 
volunteer FRG leaders. They are the command's link to the 
families, and although they are dealing at home with the same 
deployment issues as everyone else, they dedicate a substantial 
portion of their free time to reaching out to help others.
    Now, as to the question of what could be done better: I do 
feel that the Army is asking a great deal of our FRG leaders. 
They have no official status, but they bear a lot of 
responsibility.
    When Secretary of the Army White was here in April, he 
suggested that some of the key FRG positions should be 
salaried. These volunteers dedicate their time, and often their 
own money, too, keeping in communication with family members 
over a far-flung area, and they should have the status and 
protection of being official DOD employees.
    I'd also like to see more money available for child care 
during deployments. The young soldiers' spouses will not come 
out for meetings and social functions if they cannot bring 
their children. And if we are to reach them with the 
information they need, we must ensure that free child care is 
available on site.
    As deployments go on, respite care is also important. We 
are stretching our dollars and using charitable donations, as 
well, but more funding in this area would be great.
    Another thing I think the Army and all the services can 
improve on is casualty notification for seriously and very 
serious injured. This has causes a lot of heartburn for us here 
during this deployment, because of the lack of timely 
information coming from overseas. Sometimes the first notice 
the family has received has been a call directly from a 
military hospital overseas, although there has been no 
information about the casualty sent to the division casualty 
office. On one occasion, a soldier who had been sent home for 
convalescent leave called from the Nashville Airport looking 
for a ride--and that was our first indication that he had 
returned to the United States.
    The problem has been particularly bad with soldiers treated 
in the Navy system. It has been almost impossible to get 
information on their status or their whereabouts. As you can 
imagine, this has been very upsetting for the families. In this 
automated age, we should be able to do better of tracking who 
is where and letting the family members know in a timely 
manner.
    On a larger scale, I'd like to address what Congress can do 
for us. No. 1 in the minds of many here is that we need more 
soldiers on active duty, particularly in certain key 
specialties. In recent years, the Army has downsized while 
adding on more and more overseas missions. The obvious result 
of this is that many of our soldiers have been deployed 
repeatedly over the last few years. In this group, for example, 
my husband has been deployed 16 of the last 24 months, and 
Gricell Medley's has been deployed 15 of the last 17 months.
    Many families in our Chinook helicopter battalion, our 
Military Police Battalion, our logistics and special operations 
units can tell the same story. This unrelenting pace of 
deployment is a retention issue. Families will not be willing 
to go it alone forever with little relief in sight.
    I would also ask Congress to let us keep our on-post 
schools. They provide a high quality and consistent education 
for our children who move from State to State, where the 
quality of education varies and where the local school 
districts are underfunded in the area of impact aid. A number 
of our schools here at Fort Campbell have achieved Blue Ribbon 
status, and they are valued accordingly by the families.
    In closing, I'd like to thank Senator Alexander for coming 
here today. I'm proud of the way our military, our families, 
and our local communities have worked together during this 
deployment, and I would like that to be the main message that 
you take away today. Thank you.
    Senator Alexander. Thank you very much, Ms. Petraeus, and I 
appreciate very much your being with us.
    [The prepared statement of Ms. Petraeus may be found in 
additional material.]
    Senator Alexander. Josie Fees is our next witness, daughter 
of retired Army veteran. Her husband is currently out of the 
country while she's a mother working with Child Youth Services; 
is that right and has for the last 15 years.
    What we will do is, if we may proceed right down the line, 
and then when the testimony is finished, I'll ask questions of 
all four of you. Welcome.
    Major Fees. Good afternoon. I'm Josie Fees, Programs 
Operation Specialist, and I am here today to speak to you on 
behalf of Fort Campbell's Child and Youth Services Program.
    I am pleased to say that I am a military family member and 
have been for over 33 years and with Child and Youth Services 
for 15. I have been with Fort Campbell's Child and Youth 
Services for 3 years, and I speak to you with a tremendous 
sense of pride. I first noticed Child and Youth Services' 
commitment to quality and high standards for families because 
the Child and Youth Services' programs obtained national 
accreditation to include Family Child Care homes. I then 
witnessed the overwhelming kindness on 9/11 when the U.S. was 
under attack and the Installation immediately went into action 
to protect soldiers, the families, and the civilian workforce.
    It was very difficult that day to get on and off the 
Installation. And without hesitation, the Child and Youth 
Services' staff volunteered to stay and do whatever was 
necessary to ensure that all the children were safe and their 
needs were met until their parents could pick them up. Child 
and Youth Services' staff stayed past midnight and arrived back 
at 5:00 in the morning to receive the children. The staff never 
once complained. There is a saying that ``the Army takes care 
of its own.'' Fort Campbell has proven that to me time and time 
again.
    Now, with the division deployed, how has Child and Youth 
Services supported deployed families? Beginning with the 
mobilization phase, a parent notified the Child and Youth 
Services that they had a need for extended child care due to 
mobilization requirements. Extended care for evening, weekends, 
and holidays at no cost to the parent was immediately 
implemented the same day so that the soldiers could focus on 
the mission.
    Since the deployment, Child and Youth Services continues to 
provide contingency services so that soldiers and family 
members are at ease knowing their child care needs are met. 
Child and Youth Services provides on-site child care for Family 
Readiness Group meetings, we offer respite care to family 
members due to deployment issues.
    The Family Assistance Center offers child care and it's 
being provided by the staff of Child and Youth Services. The 
Family Child Care Program provides emergency care for military 
families due to deployment. Emergency care providers are 
available 24 hours a day.
    Child and Youth Services provides many family services, 
``Pamper the Parents'' day so that the parents can get a break, 
participate in Fort Campbell's Family Fun Fairs, America's Kids 
Run, and there was an essay contest titled, ``I am a Military 
Child.'' The winners were invited to read their essays at the 
Volunteer-of-the-Month ceremony.
    The staff of the child care centers is helping the children 
put together scrapbooks so the parents will have pictures of 
the events that they missed out on while they were deployed. 
The teen program takes an active lead on mentoring the young 
children and volunteering in the community in support of 
deployed families.
    The Sports and Fitness program depends largely on volunteer 
coaches, and since many of them are soldiers, spouses, along 
with some staff, have stepped up to ensure that the program 
isn't interrupted and provide service for the children.
    These are just a few of many examples of the partnerships 
with Child and Youth Services and other Community Activity 
Based Centers strong sense of commitment and dedication to our 
military families during deployment.
    Child and Youth Services is a large employer of family 
members. We recognize that the support internally, as well as 
externally, is very important during deployment and I have to 
say Fort Campbell does a fantastic job. We provide training for 
the staff so they can recognize and understand the effects 
deployment has on children, we provide stress training since 
many of our staff are family members facing the same deployment 
issues themselves.
    What type of support does Child and Youth Services need in 
order to meet the needs of deployed families? Well, we 
certainly appreciate the support Congress has provided to the 
Child and Youth Services Program and we will continue to 
maintain our ``model for the nation'' status with your support. 
We continue to be able to provide a safe, healthy, and 
nurturing program for young children and offer our youth a safe 
and fun place to go instead of being home alone.
    In closing, I'd like to say as a very proud Fort Campbell 
family member and a representative of Child and Youth Services, 
thank you for allowing us the opportunity to tell you about our 
fantastic installation and some of the things we do to show 
that families come first. As well as what we need to do to 
improve the quality of life for military families during 
deployment, the genuine concern that Congress has shown for our 
military community means more than I can express.
    [The prepared statement of Major Fees may be found in 
additional material.]
    Senator Alexander. Thank you, Ms. Fees. Willa Garrett 
taught elementary school for 10 years at home and abroad and is 
married to a 101st Airborne retiree. As an Army civilian, she 
has been involved with many children, Youth and Family 
Services. Welcome, and we look forward to your testimony.
    Ms. Garrett. Thank you, Senator Alexander.
    I have been a part of the Fort Campbell Child and Youth 
Services for the past 13-and-a-half years, and am certainly 
honored to address you today, sir, on the support services that 
were offered to families during this deployment.
    As the school liaison officer, I enjoy the privilege of 
serving as a vehicle for information for parents, schools, and 
students, as well as collaborating with local schools and 
installation organizations to facilitate the education 
transition for our children.
    Currently, the majority of our school age population is 
educated mainly by three school districts; one, our own host 
school district, the Fort Campbell Department of Defense 
Domestic Dependent Elementary Secondary Schools, sometimes 
called DDESS schools, serve about 4,200 children that reside on 
the Installation.
    Clarksville-Montgomery County School System of Tennessee 
educates approximately 5,600 of our students that reside in the 
city of Clarksville, TN. Christian County Public Schools of 
Kentucky educates about 1,100 of our students each year who 
reside in Hopkinsville and Oak Grove, KY.
    Continuity of education when family is transferred to and 
from the Fort Campbell area has improved greatly over the past 
3 years. Through the positive relations and continuous 
communication, the local school districts have developed a 
greater understanding and sensitivity about the challenges that 
our children incur as a result of transitioning from one school 
district to another.
    Fort Campbell schools is a part of the original nine school 
systems involved in the study commissioned by the Army and 
conducted by the Military Child Education Coalition Secondary 
Education Transition Study, mainly the SETS study.
    Since the initial study, the School Liaison Officer and the 
Fort Campbell schools have been working closely with the local 
school districts of Clarksville and Christian County to develop 
a local action plan that makes the transition for all our 
mobile students a more seamless venture for students and their 
families.
    Each one of these school districts consistently worked to 
ensure children who move have the same advantages and 
opportunities as those students who remain in one location for 
their entire school career. Efforts are being made to help 
families move with greater ease and remain in the area when it 
seemed that the move is harmful to children.
    In support of a recent deployment, the Fort Campbell 
schools did an excellent job of providing training for their 
counselors and the neighboring school districts. The School 
Liaison Officer partnered with the post hospital's chief of 
psychology and the psychologist for the Soldier/Family Health 
Readiness Program to offer training to counselors, teachers, 
and administrators to off-post schools. These half-day training 
sessions included a presentation on ``Deployment, Stress, 
Families and School'' that addressed identifying stress in 
adults and children, as well as ways to assist children in 
dealing with such frustrations.
    Other information provided to school during these training 
sessions included information on the Family Assistance Centers, 
current child care opportunities, and youth activities 
sponsored by Child and Youth Services, along with many other 
support services on the Installation. Suggestions for dealing 
with the reunion cycle of the deployment, as well as what to 
expect during this phase, was also presented.
    Fort Campbell, Clarksville and Christian County schools 
offer periodic parent sessions and family involvement 
opportunities throughout the school year, such as Parent/
Teacher Organization, as well as site-based council meetings to 
assist in making meaningful decisions about how their schools 
are run.
    Child and Youth Services' staff coordinate briefings for 
parents on child development and stress management. Parent 
advisory groups for full day and preschool enrolled children 
have quarterly meetings to look at the program improvements and 
share information. Training opportunities and family-oriented 
activities are frequently communicated to each school district.
    Thank you so much for the opportunity to speak on behalf of 
our children in schools. Fort Campbell continues to provide 
excellent support services to families of our deployed 
soldiers. Each of our school districts continue to be extremely 
positive and welcome as much information as possible on what is 
needed to fully support our children and their school 
districts.
    The team work displayed by each one of our schools and 
other installation support agencies is definitely commendable 
and is what I consider to be a true demonstration of dedication 
and commitment.
    Senator Alexander. Thank you very much.
    [The prepared statement of Ms. Garrett may be found in 
additional material.]
    Senator Alexander. I spent much of the morning with our 
next witness, Bob Vail, who has had a distinguished career, he 
is currently the Director of the Community Activities Business 
Center at Fort Campbell. Among other things, he has also been a 
past distinguished lieutenant governor in the Kiwanis Club, 
graduate of Leadership Clarksville, and currently active with 
Big Brothers, Big Sisters.
    Mr. Vail, thank you for the tour this morning and the time 
you spent with us today. We look forward to your testimony.
    Mr. Vail. Thank you, sir, for giving me this opportunity to 
talk about the support we provide to our Army families.
    I'm extremely proud of the support the families and 
children receive from the organizations on Fort Campbell that 
are chartered to provide that service. I am also proud to be a 
part of the surrounding communities that support Fort Campbell 
so well.
    One of the main benefits of providing superior support to 
the families is keeping them in the area where we can better 
help them in the event of need. We can keep them informed of 
what is really going on and not have them rely on media and 
rumor for their information.
    Sir, you saw the Family Assistance Center that we set up to 
provide a one-stop shop for virtually all services that are 
provided. That center has proven to be extremely beneficial and 
effective in helping families. That they can go to one site and 
get everything from emergency food supplies, financial aid, 
legal assistance, medical insurance information, and so on has 
filled a critical need.
    Our family Readiness Center has also proven to be extremely 
valuable. In terms of facilities, it provides classrooms, mail 
boxes for over 200 Family Readiness Groups, public access to 
computers, training materials, and the like. It is a resource 
center for the Army Team Building Program and the Operation 
Ready Program. It is also the focal point for our installation 
volunteer program. All these services tie together to support 
the Family Readiness Groups and individual family members and 
better prepare family members for deployments.
    The Child and Youth Services programs have proven why they 
are recognized as a model for the Nation. The exceptional 
services they provide have been invaluable in support of the 
family. We expanded our operating hours as needed, we provided 
many sessions of child care in support of the Family Readiness 
Group meetings, and emergency child care as needed. And the 
child care facility at the Family Assistance Center have all 
been provided without charge to the soldier or family. In 
addition, we have strived to provide special entertainment and 
recreation events on post free of charge to the families.
    As I mentioned, the community has embraced the family and 
their outpouring of support has been incredible. Some groups 
have focused on raising money and provided financial support 
where the official channels cannot. Others have wanted to adopt 
a family, donate products, and so on. This support has been 
truly heartwarming and has done a lot to improve the morale of 
the family members.
    Overall, I feel the support to the families and children 
has been outstanding and considerably better than during our 
last major deployment during Desert Storm. Still, there is room 
for improvement. The most important is to cover the incredible 
need for child care by the parent left as the sole provider 
during a deployment. Some of this is so the parent can do 
critical things such as doctor's appointments, house repairs, 
and so on. Other times, they just need a break.
    This is especially true of families with special needs 
children. Care of a special needs child can become overwhelming 
for the remaining parent. While we have been providing some 
free respite care, it has been on a fairly limited basis partly 
due to the cost, partly due to the capacity to provide this 
care.
    In conclusion, I am extremely proud of the role that 
community activities has played in providing support to the 
families of the soldiers that defend our freedom. Many of the 
employees that provide these services are family members 
themselves and can really relate to the problems that their 
customers bring to them.
    Thank you again for this opportunity and I stand ready to 
answer any questions that you might have.
    Senator Alexander. Thank you, Mr. Vail. Thanks to the 
witnesses for being here. I think we have some time for 
questions or for you to make further comments.
    [The prepared statement of Mr. Vail may be found in 
additional material.]
    Senator Alexander. Now, let me ask of each of you the 
question I asked of Colonel Summers. I'll just start with Mr. 
Vail and move down the table this way, if I may. If you had a 
magic wand and could wave it for one item that would improve 
family readiness at Fort Campbell, what would it be?
    Mr. Vail. Sir, I think I would have to echo Colonel Summers 
and indicate the need for a Family Readiness Center that is 
more capable of meeting the needs of the Family Readiness 
Groups and the family members. The one we have is good, but it 
really needs to have on-site child care, for example, as was 
mentioned earlier. It's very difficult to get people out, 
especially for evening classes, and that's oftentimes the only 
time available to the family members to come to classes. They 
typically won't come unless child care is available. So a more 
comprehensive Family Readiness Center would be my answer, sir.
    Senator Alexander. Ms. Fees?
    Major Fees. Well, since the Army is more of a family 
organization, in order to provide quality child care to the 
family members so they can focus on their mission, the Army has 
a great need for more facilities, child care centers.
    In Fort Campbell, we have a large need for two stand-alone 
school age programs there. And as of right now, out of the five 
elementary schools, which are located all over the post, it is 
very difficult to provide the type of facility that these 
children deserve. It's at the cafeterias or the gyms, and so 
it's a set-up and take-down everyday procedure for the staff. 
And that also causes more physical labor on the staff, and they 
have to do that before the children arrive after school. So 
facilities would be requested.
    Senator Alexander. Ms. Petraeus?
    Ms. Petraeus. I would like to see more money for the child 
care programs. Obviously the facilities are needed, as well, 
but I know that we have over 220 Family Readiness Groups on 
this post and a number of them end up obliged to do a serious 
amount of their fund-raising just to cover child care costs for 
their social functions.
    There is some child care for them free of cost, but that's 
only at their informational meeting. So if they want to get 
folks to come out and bond in a social setting, then they're 
having to find the money to pay for that child care. So that's 
what I'd like to see. If I had the choice, I'd love to see more 
money addressed to that area.
    Senator Alexander. Ms. Garrett?
    Ms. Garrett. If I had a magic wand, I'd like to see money 
made available to our off-post school districts to provide a 
transition lab in each one of the high schools and middle 
schools that would allow for an easier transition for students 
who are coming in. Maybe they are just about to complete a 
particular course from the losing school, maybe the school that 
they're coming to is on a different schedule.
    A teacher in a transition lab would be able to help them 
get through that particular course, maybe finish the one they 
were just in at the previous school.
    Senator Alexander. This would be in, like, Montgomery 
County School District and Christian County School District?
    Ms. Garrett. Yes, sir.
    Senator Alexander. Since you brought up schools, let's go 
back the other way on schools. There has been some discussion 
in the Congress about on-post schools; schools on the post and 
bases around the country. I was hoping to come down last Friday 
when Mrs. Bush came to be at the graduation here, but the votes 
were close in the Senate, so the vice president and I and all 
the other senators stayed to vote.
    What advice would you have for members of the Congress 
about the usefulness of on-post schools?
    Ms. Garrett. Sir, we value all of our local education 
activities on post and off post, and I have to say because of 
that, we don't compare them at the moment. We've never done 
that because they're excellent educational institutions and we 
just have not compared them.
    Senator Alexander. Ms. Petraeus, do you want to make any 
comment about the schools?
    Ms. Petraeus. Well, yes. As a parent, I'm willing to say 
that we do value our on-post schools very much. As I mentioned 
in my statement, that is a little bit of stability for us when 
we move. It's definitely a drawing point that attracts people 
to live on post, the opportunity to go to an on-post school.
    I know that impact aid is a question. Often the local 
communities are not given the kind of money they need to 
support our school children. And to me, if you got rid of on-
post schools, that would just compound that problem, make it 
worse. So I think they are very valuable to us, and I would be 
very dismayed to see them go away.
    Senator Alexander. May any family stationed here send their 
child to the on-post school or do they have to be living on-
post.
    Ms. Petraeus. They have to be living on post, or within a 
certain number of days of living on post.
    Senator Alexander. And if they live on post, may they send 
their child to an off-post school?
    Ms. Petraeus. To a private school, if they chose to.
    Ms. Garrett. Private schools. One off-post school in 
particular I know will not except them because they have to 
reside in their county.
    Senator Alexander. I see.
    Ms. Fees, what about the schools?
    Major Fees. As a parent myself, my children attended the 
Fort Campbell schools for 2 years, and currently we're off-post 
in Montgomery County. And during this deployment time, it has 
been as you can see the big difference of Fort Campbell 
understanding the deployment issues of these children and the 
teachers being family members themselves. It provides that 
sense of security for the children because they have behavior 
issues or they have days where they're down and they're not 
sure.
    And I think the teachers here are so much more 
understanding than the ones that are off post. As a parent, 
it's very valuable.
    Senator Alexander. Mr. Vail, any comment?
    Mr. Vail. Sir, I would tell you my perception is from 
having children in the off-post schools that the on-post 
schools are superior. I think that at least part of that is 
because of their funding stream. It is typically more reliable. 
It's not as reliant on the tax base or property taxes in the 
area and may be a little less subject to political variances in 
the local community.
    So I think they are typically viewed as being superior and 
though that's an opinion--and I do know it's a pretty 
significant emotional event for the folks that do live on post.
    Senator Alexander. I'll ask one more question of this 
panel, so if you want to throw in something I haven't asked 
you, this is a good chance to do it.
    I wanted to talk a little bit because this comes up in 
almost all of the comments, not in a critical way, but just as 
Colonel Summers said, Family Readiness is military readiness 
with more missions, and longer deployments. That's bound to be 
having an effect on families.
    What would you say to the Congress and the American people 
about the effect of more missions and longer deployments on our 
ability to retain and keep talented people in the volunteer 
Army? Mr. Vail, let's start with you and then go back that way.
    Mr. Vail. I don't think there's any question that it is 
having impact. I think the continued separations for the 
families is causing retention problems. You certainly hear 
about it in just day-to-day conversations with folks that are 
impacted by that in the work force. A lot of the work force is 
family members and so you do hear it from that perspective. So 
I don't think there's any question that it is having a very 
significant impact on retention.
    Senator Alexander. Ms. Fees?
    Major Fees. I think that what's important is if we continue 
to support the Family Readiness Programs and ensure that when 
the family member is a single parent, that there is options for 
them because they are located so far from the family members 
that we rely on one another for support.
    If there are options for us to reach out and get that 
support, the deployments wouldn't be such a hardship.
    Senator Alexander. Ms. Petraeus?
    Ms. Petraeus. I have to agree with Mr. Vail that I think it 
is a very significant thing to retention. No matter how good 
your family programs are, if you have your spouse continually 
deployed and often in harm's way, eventually people are going 
to say, enough.
    And, unfortunately, you know, it takes a long time to train 
a soldier, especially one in a specialized field, and it's not 
the ones who have been in a year or two that may decide to get 
out after their 3 years are up, but these are family members 
that have been in for some time. And when you lose them, you 
lose something very valuable.
    But I don't think the families will be willing to just 
continually go it alone, do it by themselves with the prospect 
of more and more of the same in sight.
    Senator Alexander. Ms. Garrett?
    Ms. Garrett. Sir, I agree with everything that's been said 
by the other witnesses. Our family members certainly have 
demonstrated a lot of strength. Just since I've been here at 
Fort Campbell, I've seen families hold it together when I know 
that their sponsor has deployed several times and for long 
lengths of time.
    We've also seen the negative effects of that on our 
children in schools just by some of the phones calls that I get 
from school administrators and some teachers and so forth. I 
have to also say that I agree that it's very difficult for some 
of them to stay in the Army and maintain their family 
connections. Sometimes it's very difficult for them to do.
    Senator Alexander. I said that was my last question, but I 
have 2 minutes left in this panel and I'm not going to let all 
this wisdom get away from me. Plus, this question is related to 
the last one.
    We talked about longer deployments, more frequent 
deployments. But another aspect that can uproot a family is 
what Colonel Summers and Mrs. Summers are about to do, to drive 
nine hours to Fort Leavenworth. And he was talking about the 
large number of assignments he's had over the years, and that's 
been true with all of you who have been in the military.
    I heard Secretary Rumsfeld talk recently about looking at 
ways to cut down on frequent moves by military personnel. Would 
you have any comment about that, any insight you'd like to 
offer about the wisdom of that or the effect that might have 
on, morale and the ability to retain talented people? Ms. 
Garrett, I'll start with you.
    Ms. Garrett. A few years ago, the Army implemented a new 
stabilization policy for soldiers that had juniors in high 
school or those who would be juniors, that if they wanted to 
stay at that particular post to allow their child to graduate 
with the current graduating class, they could do that.
    And I know at Fort Campbell, we've had a number of requests 
and they've all been approved. And it has really, really done a 
lot for the family stability and the education of our children.
    Senator Alexander. Ms. Petraeus?
    Ms. Petraeus. I know one house committee was looking at one 
way of stabilizing families would be to have unaccompanied unit 
rotations to Europe and Korea. And I want to say very strongly, 
I don't think that's the way to go. Again, to the family, that 
would be perceived as one more deployment, not to mention, this 
may not be the spot where they choose to be stabilized.
    I know the Marines and the Navy--often the families do 
spend long periods of time in one particular area, but often 
those are major metropolitan areas that are on the coast. They 
offer a lot of employment opportunities.
    Army bases tend to be where you have lots of land for 
training. They tend to be more rural areas with often less 
employment and less career opportunities. I don't know that 
it's necessarily a virtue to stabilize a family in that 
particular area, so I have some concerns about that. Yes, the 
frequent moves can be a challenge, but again, I don't think 
unaccompanied unit rotations are going to be a way to make that 
better.
    Senator Alexander. Thank you. Ms. Fees?
    Major Fees. I'm facing the issue with my husband being in 
the Sinai, and he has orders to return to Fort Hood and has 
requested to delete them to stay at Fort Campbell for our 
children, and they have been approved.
    It's so difficult for military children, and being one 
myself my entire life growing up, when you move as a soldier, 
you take your rank and you take your title and your status and 
you take it to the next installation. As a child, you could 
have been the All-Star on a soccer team or done really well on 
a baseball team, but you take nothing with you.
    So it's very important, I feel that if family does request 
that they can stabilize in an area, that they can.
    Senator Alexander. Mr. Vail, you get the last word.
    Mr. Vail. Well, sir, you mentioned a few minutes ago that 
some things are perceived to perhaps come with the job or with 
the territory, and I don't think that the numbers of moves has 
probably dramatically changed over the years. I think it 
probably kind of comes with the job.
    I don't think it has the same impact as does the frequent 
deployments, so I would--although it might be an issue and 
particularly there may be needs to have some provisions under 
special circumstances to do more stabilization. I think it's 
probably not as key as deployments.
    Senator Alexander. Thank you very much for your candor and 
for your help on this. Now, this is a continuing discussion. We 
will have another hearing on June the 19th, as I mentioned, and 
we're going to continue to look at this for the next couple of 
years.
    So if you have additional comments, I want to set up an 
easy way for you to get in touch with me or with our staff and 
let us know your suggestions. They'll be welcome.
    I'd like to invite the second panel to come forward, 
please.
    Welcome. And we will try to follow the same procedure we 
did before. I was saying to commanding officers a little 
earlier, I cannot imagine an institution more different than 
the United States Military than the U.S. Senate.
    The U.S. Senate is completely undisciplined. If I were to 
have asked four senators to speak for five or 6 minutes, the 
first one would barely be through coffee. And here we got 
through that testimony beautifully and had time to discuss. 
Thank you for that.
    And if you could submit your full statement for the record 
and then it will be a part of our committee record for 
Congress. Please keep your remarks to five to 7 minutes, then 
that will leave us time to have the kind of discussion we did 
with the last panel.
    Thank you very much for coming. I read your comments 
already and I'm impressed with their directness and I look 
forward to questioning you about some of them. And we will 
start with Major Joyce Dolinish. She began as Army ROTC at 
Western Michigan University. She's been stationed in the United 
States and Europe, now a Family Readiness advisor. Her husband, 
who began in the 101st Airborne, now is a colonel with the 
101st Corps Support Group.
    Major Dolinish, welcome. Thank you for being here.

  STATEMENTS OF MAJOR JOYCE DOLINISH, U.S. ARMY (RET.), 101ST 
  CORPS SUPPORT GROUP; GRICELL MEDLEY, FAMILY READINESS GROUP 
 (FRG) VOLUNTEER, SPOUSE OF DEPLOYED SOLDIER, CLARKSVILLE, TN; 
MICHELLE TAYLOR, CARETAKER OF CHILDREN OF TWO DEPLOYED PARENTS, 
  CLARKSVILLE, TN; AND FIRST SERGEANT HUGHES, NATIONAL GUARD 
  REPRESENTATIVE, 776TH MAINTENANCE COMPANY, FORT CAMPBELL, TN

    Major Dolinish. Sir, I'd like to thank you for the 
opportunity to discuss the military family deployment with the 
committee today. I am able to discuss these issues from a 
rather unique perspective of 20 years of active duty, 19 years 
as an Army spouse, 12 as an Army mom, and 2 years as a retiree 
and a disabled veteran. I'm the Family Readiness Group Advisor, 
as you stated, for the 101st Corps Support Group.
    Deployment issues are a key topic to all military families. 
As part of a volunteer force, individuals choose the life of a 
soldier because they believe that they are part of an 
organization that can make a difference in the world and in 
them as individuals. Their career choice is not an easy one for 
the soldier or for the family.
    The money is not great, the housing often substandard, the 
relocation is difficult, and the time away from their family 
increases yearly. Yet they remain on duty serving despite these 
hardships proving again and again that they are the best Army 
in the world.
    While the families feel nothing but pride and support for 
all soldiers, they all at some point begin to question when the 
constant separation becomes too much to bear as a family. 
Within our Group, units redeployed from Afghanistan only to 
begin preparation for deployment to Iraq. As we made plans for 
welcoming home soldiers returning from Iraq, we're 
simultaneously planning the departure ceremonies for units 
redeploying to a nine-month tour of Afghanistan.
    We continue to hear plans to further reduce the size of the 
Army and know that our soldiers will spend even less time with 
their family. We hear of efforts to change accompanied tours to 
Europe to a rotation which we believe is a friendly euphemism 
for another deployment.
    Most Americans think that a military mission is done when 
the press stops reporting it. Families know it takes years to 
complete the job and bring everyone home. Pride and loyalty 
hold the military family together, but at some point in the 
near future, soldiers may face ultimatums from their families 
as the amount of time together becomes less than the amount of 
time apart.
    I'd like to address the issue of mothers facing deployment 
as been in the news. I believe it's being viewed from the wrong 
angle by most observers. The Army, as you have stated, is a 
volunteer career choice, and all single soldiers or dual 
military couples with children are at all times aware of their 
potential for deployment and they're required to provide 
extensive legal documentation of a valid family care plan. If 
they cannot provide this plan, they are relieved from active 
duty.
    The parents and mothers who are currently deployed are very 
proud soldiers. They had plans in place and they executed those 
plans. The real problem is the number of soldiers whose care 
plans, when notified of deployment, suddenly were not valid. 
These soldiers knowingly, willingly lied to their commanders 
and provided false legal documentation. The units then deployed 
without these soldiers, perhaps compromising their mission.
    Soldiers are informed adults who must make difficult 
decisions regarding their families. Life as a soldier is not an 
easy one, especially for single parents or dual military 
couples. If they decide to pursue it, they must be prepared for 
separations and have a valid care plan for their children. If 
they do not have someone they trust ready to assume the role of 
parent at any time, they must pursue another career.
    Civilians make hard decisions based on the amount of time 
they'll be away from their families and make job decisions 
based on that. Soldiers must make the same tough decisions. The 
Army life is not for everyone.
    Contrary to popular belief, the return of a soldier from a 
long deployment is often more difficult than their departure. 
The redeployment briefings are normally offered at the Family 
Readiness Group meetings when rumors start that soldiers are 
coming home. FRG leaders hope that each family will attend at 
least one of those briefings, but we cannot enforce it.
    FRG leaders, chaplains, and social workers from the 
hospital jointly present these briefings, but there is 
currently no standard format or books to use. The resources 
available on military installations are insufficient to provide 
the on-going support needed by many soldiers and their 
families.
    On-post schools are one of the positive aspects of 
deployment and military life. Children are surrounded by peers 
going through the same thing they are. Teachers and counselors 
are experienced with deployments and are trained to watch 
children for signs of excessive stress. Teachers have constant 
access to the families and support from military units and the 
Installation. Exceptional discipline is maintained, in part 
because the military parent can be held accountable for their 
child's actions.
    Fort Campbell is fortunate to have outstanding community 
support, but the off-post schools cannot compete with the on-
post schools' ability to prepare children for the constant 
deployment and redeployment of soldiers. Funding continues to 
be reduced for on-post school systems at a time of increasing 
soldier deployments, when they can least afford to cut corners 
or reduce programs.
    On-post schools are better prepared to ensure the 
continuity of education for each child as a military family 
transfers throughout their career. Department of Defense 
guidelines ensure that all schools on military installations 
have similar curriculums. Improvements have been made and 
agreements coordinated with many off-post schools near military 
bases to ease the transition of military students; however, 
gaps continue to occur. Constant moves are extremely difficult 
on children. Gaps in curriculums or the calculation of credits 
for graduation can make the move even more traumatic. On-post 
schools are something we would not want to lose.
    The most positive aspect of this deployment has been the 
way the Installation, military rear detachments, families, and 
the local community have pulled together. Large-scale 
deployments are difficult on everyone. Communication and mutual 
support has been outstanding. Most military families are 
extremely self-sufficient, but they need to know what is going 
on. The relatively few families that need support receive the 
help they need quickly and from many sources.
    The key negative areas of this deployment were casualty 
notification and the tracking of casualties in the medical 
system, as Ms. Petraeus has already stated. Embedded media 
provided real-time coverage of events. Families knew 
immediately that an accident or casualty had occurred, and by 
watching closely, could often narrow the event to a specific 
unit.
    While no one argues that all casualty notification must be 
100 percent accurate, the time from the incident until the time 
the Department of the Army approves notification of next of kin 
is currently unacceptable given today's media and communication 
capabilities. Soldiers are calling back and notifying spouses 
of a casualty before the assistance officers can get to the 
homes to do a notification.
    Injured soldiers are nearly impossible to track in the 
multiservice medical system. Today's military family depends 
and deserves a casualty notification system that recognizes the 
impact of instant media and communication.
    Basically the military family doesn't want special 
treatment. They're very self-reliant and they're proud of what 
they do, but they do want uninterrupted support in critical 
areas, medical, schooling, an on-going post support. And 
together, we can all do that and do a very good job of it. I'd 
like to thank you for the opportunity for coming, sir.
    Senator Alexander. Thank you for your comments.
    [The prepared statement of Major Dolinish may be found in 
additional material.]
    Senator Alexander. Ms. Gricell Medley has managed the 
Support Team Building and Readiness Groups for families at Fort 
Campbell as well as in Panama. Welcome. We're glad you're here 
and look forward to your testimony.
    Ms. Medley. Senator Alexander, good afternoon. Thank you 
for allowing me this opportunity to talk to you about our 
family's experience with the military.
    My name, as you said, is Gricell Medley. My husband, Major 
Lee Medley, is the commander of the CH47 Chinook Helicopter 
Company in the 7th Battalion, 101st Aviation Regiment.
    We have been married 9 years and have been blessed with two 
young daughters, Lia and Emma. I met my husband during his 
service in Panama. We married in 1994. The challenges of being 
newlyweds from two different cultures created a special bond 
between my husband and I. The main reason we have stayed in the 
Army is because simply, my husband loves his job, and he loves 
the fact that he is serving our Nation.
    Some of the other reasons we stay in the Army is because of 
the excellent medical care, career advancement, continued 
training, retirement benefits, on-post housing, DOD schools, 
and the great sense of community. My husband took command of 
his Company in 2001. As the commander's wife, I assumed the 
role as the unit's Family Readiness Group leader.
    Since Desert Storm, the Army has continued to place 
emphasis and importance on the Army's FRG. I think this is one 
of the things the Army has done well in the business of taking 
care of soldiers and their families. Simply defined, the FRG 
consists of volunteers, usually, the spouses of the soldiers, 
working together to provide assistance and information to all 
families and single soldiers within the unit. It is important 
to remember that everyone is welcome to participate regardless 
of their rank.
    Above the company level, we join with the FRG from our 
higher headquarters supporting the larger efforts and 
beneficial projects. Our FRG organizes informational briefings 
for the spouses, updates, and disseminates information about 
deployments, welcomes new spouses, visits hospitalized family 
members and soldiers, plans Easter egg hunts and many other 
special events.
    In my opinion, the most important role of the FRG remains 
information management. Without our dedicated volunteers, the 
FRG simply would not function. While the FRG is a great 
strength of the Army, we could do better by actually funding 
the FRG with paid personnel to continuity and stability for the 
unit.
    One of the things the Army needs to take a closer look at 
is the price the op tempo takes on its soldiers and family 
members. The operational tempo of the Army has increased over 
the last decade, while the divisional strength of the Army has 
decreased; in other words, more missions, more deployments with 
fewer people, especially in certain fields like Chinook 
Helicopter Units.
    I would like to take a moment to tell you how these 
increased deployments have affected my family. Our youngest 
daughter, Emma, is 17 months old. My husband has been deployed 
15 of those months. He has been deployed to Korea, 2 JRTC 
rotations to Fort Polk, Afghanistan for 8 months, and finally 
Iraq since March of this year. He was only home for 21 days 
between Afghanistan and Iraq. The majority of that time was 
spent training and preparing his soldiers for redeployment.
    While I am extremely proud of our soldiers and our 
families, this number of separations and deployments to 
stressful environments have taken an enormous toll on our Army 
families. I am afraid it's a retention issue for our young 
officers and enlisted personnel. Many of them get out of the 
Army because simply they do not like the repeated separations 
from their families.
    As I mentioned before, my husband's company spent 8 months 
in Afghanistan. I would like to make sure that you know that 
the 7th Battalion of the 101st has maintained all of the 
Chinook personnel rotations in Afghanistan since January 2002.
    C Company, currently in Afghanistan, was previously there 
for 4 months, home for two, and went back to Afghanistan in 
December of 2002. We do not know when they will return.
    This unknown is one of the frustrations that soldiers and 
families face. We do not know when they will return or what 
their recovery time will be. In addition, I have read in the 
Army Times about the Army's plan to send fewer families to 
Europe and Korea and instead, rotate battalions for six-month 
deployments. To our family, this is one more deployment.
    My family hopes that change never happens. We would much 
rather go as a family for two or 3 years. It is very important 
to us to keep our families together as much as possible.
    Again, thank you for taking the time to listen to my 
comments today. I feel honored to have had the opportunity to 
express my thoughts to you and I deeply appreciate your 
interest in improving the quality of life of our Army families.
    [The prepared statement of Ms. Medley may be found in 
additional material.]
    Senator Alexander. Thank you, Ms. Medley. We have been 
talking some about there being more missions, fewer soldiers, 
longer deployments, more women in the service, more families 
with children, and also, more spouses working at those 
assignments. Michelle Taylor is one of those. She's a military 
spouse, a dedicated volunteer, and she also is a sales director 
for Mary Kay Cosmetics. We welcome your presence and look 
forward to your testimony.
    Ms. Taylor. Good afternoon. As you mentioned, my name is 
Michelle Taylor. My husband, Kirk, is a major in the division's 
plan section.
    As an Army wife of 15 years and geographically a single 
parent for two of the last 3 years, I'm here to share my 
thoughts and observations concerning support for the families 
of deployed soldiers.
    Overall, I have to commend the efforts of the Installation 
staff and leadership. I am convinced that they have put their 
best foot forward in attempting to handle the myriad of issues 
that arise when an entire Division deploys.
    Army Community Service and the Family Assistance Center are 
both examples of the larger effort to take care of the families 
and communities left behind. In addition, the hospital has 
remained responsive, despite the deployment of many of its 
medical staff.
    However, the lynchpin of support is provided through the 
Family Readiness Groups that exist to support families at the 
grassroots level. This is essentially a self-help resource in 
that the more a spouse attends and participates, the greater 
the benefits he or she will receive. Family Readiness Groups 
exist year-round and the familiarity it breeds amongst its 
members aids in the early identification of families who are in 
need. This early screening helps the more experienced group 
members steer others to resources before the situation becomes 
a crisis.
    I have been frustrated at times by the seemingly lack of 
information flow down to the company level, but I suspect that 
the problem resides largely in the adage, we don't know what we 
don't know.
    Another source of enormous support resides in our church 
communities. As you might expect, many of the post chaplains, 
including all of the Catholic chaplains, deployed in support of 
the troops. The foundation of community that resides uniquely 
in our church community, regardless of faith, has truly helped 
the family members who fall through the Family Readiness safety 
net.
    Last, the local communities of Clarksville, Oak Grove, and 
Hopkinsville have responded in their always gracious manner. 
The knowledge that the community-at-large values the sacrifices 
of both the soldiers and their family members is reassuring and 
takes a little of the sting out of the series of separations 
we've recently experienced.
    The most obvious response as to how you and your fellow 
Members of Congress can help is easily summed up in one word, 
money. More specifically, we need help in several areas to 
include improvement in the Tri-Care System and delivery of 
health care services. The long wait for nonthreatening, yet 
essential to quality-of-life care is unacceptable.
    Changes to the maintenance and development of on-post 
housing is also needed. As an off-post family, the result of a 
12-month plus waiting list upon arrival to Fort Campbell, 
gaining access to several of the available programs is 
problematic.
    Funding for child care facilities is also needed. Spouses 
with young children are far less likely to attend a family 
support group meeting or other organizational meetings when 
they have to spend their meager disposable funds for child 
care.
    While the Government has relieved soldiers in the Iraqi 
theater of war of the Federal tax burden, others are not so 
lucky. Many hardship or unaccompanied tours do not enjoy the 
same relief. A good example is our forces serving in Korea. 
Despite my husband's commitment to living a very Spartan 
lifestyle during his deployment there, the assignment was a 
financial hardship based solely on the need to maintain two 
households. This additional financial burden was managed on a 
Major's salary and my additional income, but this can't be said 
for all of our younger soldiers and families.
    Last, I am tired. I would not trade the friends or 
experiences that our family has enjoyed as a result of my 
husband's service, but the pace of deployments has reached a 
point that personally I find unacceptable. I'm proud of Kirk's 
service to our Nation. He is my hero. But he is also a father 
and a husband.
    The Army needs people like my husband to lead soldiers 
where it matters most, at the tactical unit level. I will 
accompany Kirk where the Army sees fit to assign him next, but 
I will not encourage another move to a tactical unit. I find 
this sad and a loss to the Army. However, the bottom line is 
that an assignment to a Divisional unit right now is a near 
guarantee of prolonged separation with little hope for change 
in the future.
    Senator Alexander, thank you for joining us today and 
allowing us to give voice to our concerns. The Army is a close-
knit family, and when possible, we take care of our own. 
Whatever help you and the Members of Congress can provide for 
us is greatly appreciated. Thank you.
    Senator Alexander. Thank you.
    [The prepared statement of Ms. Taylor may be found in 
additional material.]
    Senator Alexander. First Sergeant Thomas Hughes is from 
Carter County, Tennessee, and he is a representative of a 
phenomenon we're increasingly seeing, served in active duty, 
now he's been in the Tennessee National Guard since 1985 or 
1986.
    Sergeant Hughes. Yes, sir.
    Senator Alexander. He was deployed in Desert Storm and 
still in the Guard. And we hear more and more that we're 
thinking of our Armed Services and our Guardsmen, and our 
Reservists as a single unit, but at Fort Campbell, we're very 
much aware of that. And we welcome you here to hear your 
perspective.
    Sergeant Hughes. Thank you.
    Good afternoon. I'm First Sergeant Thomas Hughes of the 
776th Maintenance Company stationed here at Fort Campbell. I 
feel privileged to be able to speak to Senator Alexander from 
my home State on issues that have affected my National Guard 
Unit.
    Answering your first question, ``What has the Army done 
well for our families?'' Being from East Tennessee, many of our 
soldiers have seen an increase in their salary. This has 
resulted in a better lifestyle for their families. Some 
soldiers have struggled with bills and medical payments prior 
to mobilization.
    The housing allowance and family separation allowance has 
benefited greatly to their base salaries. These additional 
allowances give the soldiers a chance at taking care of their 
bills and also any extra expenses that has occurred during 
mobilization. This allows their families to receive proper 
medical care physicals and cover any emergencies that might 
arise. This is an important issue with the soldiers as long as 
they know their families are taken care of, they perform their 
duties and maintain a higher level of morale.
    Our Family Support Group has worked hard to keep the 
families informed of their family members here at Fort 
Campbell, as well as any changes that may affect the members of 
the family at Home Station. We have developed a newsletter to 
mail to families due to the fact that some are unable to attend 
scheduled meetings. Family Support Groups play a critical role 
in mobilized units.
    Second, ``What can be done better for our families?'' 
Having served on active duty for 4 years in an infantry 
company, also 18 years in the Tennessee Army National Guard, I 
have experienced many problems associated with the mobilization 
of troops. I've been mobilized three times during my career in 
the National Guard.
    More emphasis needs to be placed on the initial briefing 
for Tri-Care Health Insurance. Many issues have arisen about 
benefits and providers. The soldiers do not understand how the 
system works. It's very complicated and it needs to be 
simplified. We need to utilize representatives from Tri-Care to 
do the briefings making sure families know whom to see for 
health care. We've had one soldier whose wife was dropped from 
Tri-Care since we've been here. This is unacceptable. The 
soldier is present at Fort Campbell and working in active-duty 
status.
    I would like to add to that comment, that has been taken 
care of since this was written.
    One entire day needs to be spent during pre-mobilization to 
get identification cards for families and all required forms 
filled out correctly. This needs to be accomplished before the 
National Guard Unit deploys to the mobilization station. Upon 
arrival at the mobilization station, it's too late to help your 
spouse. Many of our soldiers worked at resolving issues for 
several weeks after arrival at Fort Campbell. It takes time to 
prepare documents for Powers of Attorney, Wills and required 
medical forms, birth certificates, social security cards.
    More emphasis needs to be placed on supporting the Family 
Support Groups by the Army. Money needs to be allocated for 
materials, stamps, and any necessary equipment required by the 
elected staff of the support group. The Family Support Group 
are the unsung heroes of this war. They must assume the role of 
both parents in our absence.
    In closing, thank you for allowing me to discuss the issues 
concerning National Guard deployment. By making these changes, 
you will see highly motivated soldiers ready to go the extra 
distance to accomplish any and all required duties.
    Senator Alexander. Thank you, Mr. Hughes. Now we have time 
for some questions and further comments.
    I'd like to start with the one about care plans. I think 
many civilians haven't thought much about this, haven't really 
thought about what happens when military parents with children, 
suddenly receive orders to be deployed to Iraq or Korea, 
wherever, training, and suddenly one parent is left with what 
two parents were doing. Or sometimes it's a single parent or 
occasionally, it might be both parents.
    Last year when I was campaigning, I spent the night with 
Ted and Jean Purtam here, both retired, both at Fort Campbell. 
I see Ted at the back of the room. He was a colonel in Iraq 10 
years ago in Desert Storm. His wife, a lieutenant colonel, was 
in charge of a nursing unit. They were both there. They had two 
young sons and Grandma was their care plan, and they had that 
worked out.
    But that caused me to think about the care plans. And then 
Major Dolinish has pointed out that in some cases, servicemen 
and women who were required to have a care plan, didn't have 
one, and that meant that their unit suffered when the unit was 
deployed.
    Talk to me a little bit about the care plans and how that 
works and whether there's anything that Congress or the 
Services might do to make it easier for military parents 
raising children to plan for the times when one or--when the 
only parent or both parents might be deployed.
    Why don't we start with you, Ms. Taylor, and we will go 
down this direction.
    Ms. Taylor. Well, I can only speak from a spouse's 
perspective because I've never been active duty. I read 
recently that the Army is looking into possibly only allowing 
one active duty to deploy at a time, and I don't necessarily 
know that that's the answer because that's asking the person 
that stays back to sacrifice their career or to perhaps not 
advance.
    I honestly don't have an answer for that issue because 
although it's hard being a sole parent, I'm blessed that I'm 
flexible in my career and am able to be home for them when 
necessary.
    Senator Alexander. Ms. Medley?
    Ms. Medley. The exposure that I have is limited as a 
spouse; however, my thought would be definitely more 
challenging when we have two active duty personnel going to war 
because they definitely count on the other parent, and I would 
focus on that. I definitely think that we do our best, but it's 
by choice. It's an Army by choice. So definitely we have to be 
responsible for the choices we make in life.
    Senator Alexander. Major Dolinish, you used some pretty 
strong words. You said that some members of the service didn't 
tell the truth about having a care plan; therefore, when they 
were called to go, they couldn't go.
    Major Dolinish. Right. Sir, family care plans are provided 
from the moment--for one thing, a single soldier with children 
is not supposed to come into the Army. They may do so by 
transferring guardianship. And then what happens, though, is 
that as soon as a certain time period has passed, they regain 
that guardianship.
    Any single parent in the Army or dual military couple has 
to have a family care plan. It's a very itemized legal document 
and it deals with everything from--if you were to leave this 
instance and you had 15 minutes, interim right here, who are 
you going to leave your child with? And it's notarized 
documents from that individual saying, I accept that 
responsibility, it includes financial documentation on how 
you're going to take care of your child in your absence, and 
includes long-term care in that extent.
    It's a voluntary service. It's not a social institution. We 
come in knowing the risks. I know I spent 12 years with one or 
the other of us gone a lot of the time. Only one time did we 
both deploy, both to Haiti, and in recognizing the Army Child 
Care System, my child at that time opted to stay with her 
interim care provider at Fort Bragg because she was more 
comfortable there with the other children. She thought it was 
just her turn to spend the night for a long time.
    But we were fully prepared, we knew that was an option. And 
one of the reliefs of this deployment, it had been the first 
time where that wasn't a risk. But we made calculated decisions 
as a family and executed our care plan and did that.
    But there are families that provide all that legal 
documentation, and then it has to be reviewed every year. It's 
a very detailed legal process. But then at the time they're 
told they're deploying, Aunt so-and-so can't take my kids or 
there's a myriad of problems. And many soldiers have done this 
many times and have avoided every deployment.
    It's not right. It's not fair to the units. They then 
deploy without a soldier, without a skill, and there are not 
any excess soldiers running around. That hole doesn't get 
filled up. Someone they've trained with is now gone and is 
unavailable to the real-life mission, perhaps compromising that 
mission. And in a volunteer Army, that's unacceptable.
    They know the risks, they've planned it legally, they're 
provided legal documentation.
    Senator Alexander. Sergeant Hughes, for Guardsmen and 
Reservists, I guess the issue is a little different. At least 
at one time it was a little bit more of a surprise to be called 
up for a long time, and now it's not so much of a surprise.
    What would you have to say about the planning for the care 
of children when a single parent or both parents are suddenly 
called upon.
    Sergeant Hughes. Sir, we had a lot of issues, you know, 
once we got called up and stuff in trying to assign--like she 
talked about, assigning someone to take responsibility, whether 
it was going to be an aunt or a family member or something like 
that. But, you know, currently, we've got people to stay not 
only with their brothers or sisters or grandmother, 
grandfather, also with the neighbors, friends. It's not even a 
part of the family who's got actual custody of the children 
during the single parent deployment. It's hard for the single 
parent.
    And what makes it really hard for my single parents is 
because we're at Fort Campbell, it's only about 380 miles from 
home and a lot of them can't bring their kids up here. And I 
have a lot of them that have asked that question and stuff. As 
of right now, based on their housing needs, that's impossible.
    Senator Alexander. There were some comments about what you 
call reintegration. The one witness said that leaving is 
difficult, coming home is more difficult sometimes. And 
sometimes that results in tragic incidents when soldiers come 
back from long periods of time away and something happens in 
the family, including in rare instances, spousal abuse. Maybe 
that's gone on for a long time and hasn't been discussed--it's 
just being more talked about today. Maybe it's a phenomenon of 
the long deployment.
    Talk to me about reintegration and coming home and what the 
Army can do and what we in Congress can do to make that easier 
on families. Sergeant Hughes, I'll let you go first and we will 
go this way this time, if I may do so.
    Sergeant Hughes. I think the best thing they can do is 
provide counseling initially, you know, once they get back, or 
you can actually start the counseling in theater at that time. 
And I think keeping a good communication line open between them 
and their families maybe prior to coming home, you know, they 
don't expect it has changed drastically or anything like that.
    You know, basically that's about it, I think.
    Senator Alexander. Major Dolinish?
    Major Dolinish. The counseling I understand is improving 
and they're trying to standardize some of the briefings given 
on both sides from the soldier leaving the area of operation 
and the family here.
    The Army has also recognized after the last incidents that 
a lot of the families are not going to like it, but they're not 
going to immediately come back home and go on block leave. The 
soldiers will be reintegrated a little bit more slowly by 
spending about half a day at work for the first couple of weeks 
so they're not just thrown in with the family. It's very 
difficult.
    Many of the wives never had much control, and then for 
expanded periods of time, they are in charge and the children 
start to look to them. They're doing the finances, they're 
doing everything. Suddenly the husband is back and immediately 
thinks that, I'm home, I'm back in charge, the kids are going 
to answer to me, I'm going to take back over the checkbook.
    But that's got to happen slowly and they've got to think it 
through and talk it out. The Army is good at talking to us 
about that in counseling, but it's not an easy process.
    Senator Alexander. Ms. Medley?
    Ms. Medley. I do agree it's not an easy process. I will say 
that definitely we assume two different roles. We become single 
parents, we become the household of the house. Our spouses, on 
the other hand, are exposed to a lot of danger in performing 
their missions.
    I definitely would say that we have been receiving reunion 
briefings now. The good news is that we do have a standard 
reunion brief and it's going to be given to the soldiers, as 
well as to the spouses.
    I definitely believe that probably the strongest or the 
most important process comparing the deployment process versus 
the redeployment process, definitely the reunion is going to be 
hard on the families. What is important to me and I am very 
happy to learn is that the initial brief, it will be definitely 
distracting to many families that are really focused on having 
their spouses back. That's the only thing we can focus about. 
That is our source of joy.
    However, my understanding is that the reunion process will 
be taking a briefing prior of our soldiers coming back, and 
later on, meeting again to see how we are doing. That will 
allow us to have the tools and go back and say, okay. Probably 
I am okay because that process, I understand. We are doing 
fine.
    It's definitely a challenge, but I do believe that if we 
have been surviving until this point--if we have the right 
tools, we definitely will survive.
    Senator Alexander. Ms. Taylor?
    Ms. Taylor. I agree with what's been said. In our family, 
we call it re-entry and we've had to do it quite often. The 
initial re-entry was during Desert Storm and I think that the 
Army has come a long way with assisting families with that part 
of the deployment because we learned from past experiences.
    However, on a personal note, I have tried to do some 
proactive counseling, and in my statement, I mentioned the 
unacceptable waiting periods. I called to receive counseling 
for myself and my daughter because this has been an extremely 
difficult deployment for the three of us. And because it was 
not life-threatening, as in, you know, something's going to 
happen in the next 24 hours, it was a three-and-a-half week 
waiting period before we could be seen.
    And to me, that's unacceptable because the issues are 
ongoing. And at the point where someone makes that phone call, 
it's reached a level where you need help now. Whether or not 
there's an issue of harm, the emotional phase, you've reached 
that point.
    So I think that somehow maybe in working with Tri-Care and 
the local civilian counseling centers, perhaps that could be 
addressed.
    Senator Alexander. Thank you, Ms. Taylor. Let me ask all of 
you this question, and I'll start with Ms. Taylor. I'll come 
back with you. My sense is that the family issues, the issues 
of parents raising children is at least being more talked about 
today within the Army, within the Armed Services, than it was 5 
years ago or 10 years ago.
    I guess the first part of my question, is that true? And 
the second part, why is it true? Is it because the Army is 
changing? Is it because there are more women in the Army, 
because of somewhat more marriages, because there are more 
children, because there are more women and husbands, each of 
whom has a career, as many of you do, or is it just because we 
are becoming more open and willing to talk about issues like 
this?
    How do you look at the last 10 years, say, in the Army 
dealing with issues of parents raising children, and to the 
extent there have been changes, what do you think has caused 
that change?
    Ms. Taylor. Absolutely, I do think that there have been 
changes to the positive. My thoughts would be that it's a 
necessity because of the frequency of deployments.
    When my husband and I went to our first assignment, he was 
gone, but not the frequency that he is now. The Army is 
smaller, there are more missions, and I think that out of 
necessity and because we're an educated people, we have 
discovered that counseling--and maybe it is a pride thing, 
that, you know, before, people just didn't talk about it. And 
in today's society, it's something that's just common. There's 
not as much negative stigma requesting counseling as perhaps 
there was in the past.
    But I would say the frequency of deployments has 
necessitated the counseling and intervention.
    Senator Alexander. Ms. Medley, you've been looking at this 
for about 10 years. Have you seen any changes in the last 10 
years, and if so, what do you think has caused those changes in 
terms of our attitude toward military families raising 
children?
    Ms. Medley. Well, I would start mentioning--what I 
mentioned in the beginning of my statement, the military 
provides you with a sense of community that is very unique. It 
is one to be proud to be in the military. I think we are 
blessed by that.
    And with that, I will link that with the FRG's. I will 
definitely say that it is a combat multiplier. What I will say 
is that the people are comfortable with their surroundings, the 
people that are dealing with the same issues they are, they are 
more willing to speak about their issues, definitely. That's 
why it's so important, and we stress so much about the support 
to the FRG's.
    And people definitely are more willing to speak to others 
that are dealing with the same situation. We all see ourselves 
being completely bonded with the people surrounding us, and not 
so much with the civilian world, not because we do not feel 
their support, but we definitely do not understand if they have 
a sense of reality, of our own reality.
    Parent raising children? Yes, it is an issue and we feel 
more open when we have other mothers dealing with the same 
issues we are. And I do believe that the reality is, true, we 
are improving in being more open and the sense of community, 
too.
    Senator Alexander. Thank you. Major Dolinish?
    Major Dolinish. The demographics of the Army have 
definitely changed, society has changed. Fathers are more and 
more demanding a place in their children's lives where--even my 
father, just one generation back, he basically went to work and 
came home. Mom took care of us. Today's fathers want to be a 
part of their children's lives and I think military fathers are 
no different.
    I think the talk has definitely improved over the years, 
the programs have somewhat improved, the money has slightly 
improved. So we're going in the right direction and we're 
making strides, but there's a lot that we can continue to work 
on with the military family.
    Senator Alexander. Sergeant Hughes?
    Sergeant Hughes. There's been a big change between Desert 
Storm--that's when family groups really got initiated, I think, 
from our aspect. The difference between there and now is a huge 
change.
    And like you said, we're going in the right direction, but 
it's different for a National Guardsmen. Here at Fort Campbell, 
I think--from what I've seen and heard through Family Support 
Groups and the programs they've set up and what I've seen here 
on base of all the programs they do for the kids, it's a role 
model for the Army, I think. But for the National Guard, it's a 
whole different picture because we don't have anything back 
home, you know.
    It's a challenge for our Family Support Groups to get 
stamps to mail out our newsletters that we print off a little 
copy machine. And, you know, we've got a long way to go still 
on the National Guard aspect as far as helping the Family 
Support Groups, I think.
    Major Dolinish. If we ever get some kind of integrated 
system--the support group has reserve components that fall 
under us. Trying to link my readiness groups with their 
readiness groups is extremely difficult because there's no 
standard.
    Sergeant Hughes. And there needs to be a standard Army-wide 
thing--don't you agree with that--on the Family Support Groups? 
Let's all go on the same sheet of music.
    Senator Alexander. Am I correct that during Desert Storm, 
many families went, quote, home, away from post to some other 
place where they felt more comfortable, but during this war in 
Iraq, that most families stayed at the post, or more families 
stayed at the post. A, am I right about that impression and, B, 
if it's true, why do you think it's true?
    Sergeant Hughes. More comfortable, I believe. You know, if 
their parents--if their husband has gone overseas or something, 
it may be more, and they get more comfort at home, you know, 
being home with their family members.
    Senator Alexander. Well, is it true that more stayed here? 
More families have stayed here?
    Ms. Medley. I will say I have been exposed to deployments 
back to back, and I can say, the first deployment, I did see a 
lot of people just go home.
    Senator Alexander. When was the last one?
    Ms. Medley. Last summer.
    Major Dolinish. That's part of the difference, though. This 
is a winter deployment during school. And as school is letting 
out, you're starting to see some people starting to drift home, 
but kind of afraid to because they keep hearing rumors, they're 
coming home, they're coming home.
    So I think a lot of people are kind of holding on waiting 
here waiting for news. They're afraid to leave, that they're 
going to have to turn around and come back.
    Senator Alexander. Desert Storm was in the winter, as well.
    Ms. Taylor. I think the difference--having stayed in 
Germany during Desert Storm and the majority of the spouses 
went home--what they learned is that if they stayed closer to 
the unit, they'll gain information as opposed to going home to 
Mom and Dad where maybe they're in a civilian community, there 
is no military understanding. What they found is it was better 
to stay to be around the people who understood, they're in the 
same situation. Even though Mom and Dad were a comfort, here 
was where you were going to gain information and have the real 
support structure.
    Senator Alexander. I've got a last question and I'm going 
to make it an easy one. I'm going to ask you the magic wand 
question and I'll start with you, Sergeant.
    If you had a magic wand and you could think of one thing 
that would make life easier, in your case, for the National 
Guardsmen and their families raising children, what would you 
do?
    Sergeant Hughes. I'd like to see the State of Tennessee get 
more involved in the Family Support Groups funding-wise, 
facility-wise, and better coordination between the State and 
the Family Support Groups. I think that would be the biggest 
help, because I'm going to tell you, if you support your 
families and the troops know their family is being taken care 
of, they'll do anything you ask them.
    Senator Alexander. Major Dolinish?
    Major Dolinish. A paid officer member to be the Family 
Readiness Group leader all the time, at least for Brigade 
level, to provide the continuity so that no matter who's 
moving, who's coming, who's going, you maintain a steady keel.
    And also, that office member needs to be in the National 
Guard and Reserve components where we could link in. We would 
have an established network of these folks to have some 
continuity, a real-life address where we can coordinate with 
each other, maintain the lessons learned and not--the FRG 
leadership and leaders tend to operate on a wave. It depends on 
whether there's a deployment or not.
    Things get very low key and it's hard to get rosters. And 
it will peak up and you're getting all kinds of information 
flow from a fire hydrant and then it will back down again. And 
it's very easy to lose everything every time it dips. An office 
member would maintain that throughout.
    Senator Alexander. That means a paid full-time person to do 
what a volunteer now does?
    Major Dolinish. I know I put in probably three or four 
hours a day on to military-related specifics.
    Senator Alexander. It's usually true that volunteer 
organizations work better if there's a full-time coordinator 
and volunteer.
    Major Dolinish. And not all the way down to Company levels. 
At least at Brigade and up where everybody has access to that 
resource and can spread the wealth.
    Senator Alexander. Ms. Medley?
    Ms. Medley. I definitely would go for a sense of 
proportion, which is a magic scenario anyway, but definitely 
allow our soldiers to be soldiers. They are soldiers by choice 
and we cannot doubt that they are in love with their mission, 
they really are, but they will get discouraged if they don't 
have the opportunity to become good parents and good spouses.
    So I would definitely focus on their sense of proportion to 
provide the soldiers a healthy life, mentally and also 
emotionally.
    Senator Alexander. Thank you.
    Ms. Taylor?
    Ms. Taylor. My magic wand would involve housing. As someone 
who has been researching for the past 2 months the area of 
Virginia because on-post housing is impossible, the ability to 
have on-post housing or maybe contracted housing.
    And with that issue is the schools. The standards in every 
area that we have been is so different, different than when we 
started in New York to Kansas to now here, and again now to 
Virginia, and trying to have all the necessary records for what 
they require is a huge challenge.
    And if every place that we went had a school available on 
post and we could live on post, that would be ideal. I know 
that that will probably never happen, however, that's an issue 
that I would like to see addressed.
    Senator Alexander. Thank you.
    Let me thank all of you for your testimony. And let me just 
observe, I guess I should have expected this, but I am 
impressed with the directness of your testimony and balance of 
your testimony. You've looked hard to see things that have gone 
well, and you've not been afraid to talk about things that need 
work. And that gives those of us in the Congress a way to go 
about doing things.
    Let me leave with an invitation to you. As I mentioned to 
the first panel, this is an ongoing discussion. I'll be getting 
together with the three other senators who are holding hearings 
between now and June 19th.
    Four senators actually working on the same thing at once is 
nearly a record, I want you to know that. So I want you to know 
how important we believe it is, the subject of military parents 
raising children and supporting military families.
    And we won't stop with June 19th. We will continue to be 
interested, not just in Fort Campbell, but other places in the 
country, and some of you are likely to be in those places in 
the country, so I hope you'll stay in touch with me or my staff 
and help us do a better job.
    I can't come to Fort Campbell without saying to Colonel 
Ruggley and Ms. Petraeus and General Petraeus how proud we are 
of all the forces here, the Special Operation Forces, 101st 
Airborne, the civilians, the National Guardsmen, and 
Reservists. It's a great source of pride to all of us from 
Tennessee and Kentucky to be associated with such terrific men 
and women, and you have represented them well today.
    Thank you very much for your time.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

               Prepared Statement of Col. Kim L. Summers

    Senator Alexander, I would like to take this opportunity to thank 
you and the committee for allowing me to speak to these critical 
issues. As the Garrison Commander of Fort Campbell for the past two 
years, I have observed many facets of these questions and hope to 
provide an informative perspective.
    Fort Campbell is the home to some 24,916 soldiers and supports 
14,700 Reserve and National Guard soldiers, 46,177 family members, and 
over 124,000 retirees. The installation encompasses 105,000 acres and 
borders two states and four counties. Our association and relationship 
with the local communities is top notch. In my 25 years of service, I 
have seen none better. As a result of this extraordinary relationship 
and these communities' genuine care for soldiers, our community support 
structure is second to none. An example is the joint commitment of both 
the Christian County and Montgomery County school systems who teamed up 
with our own on-post schools in adopting the Secondary Education 
Transfer Study program more than a year ago. This program has made it 
much simpler and smoother for high school students of military families 
to transfer between duty assignments and associated schools without 
disadvantaging the student academically.
    In order for our soldiers to properly prepare for missions when our 
nation calls, we as an installation offer a variety of family support 
services to our soldiers and families. This support allows the military 
member to train to the highest standard. As part of that readiness 
preparation, the Garrison of Fort Campbell, as well as the entire chain 
of command of our Army, know the importance and relationship family 
readiness plays in each soldier's ability to accomplish the mission. As 
with our community support programs, our family readiness operations 
are world class due to the support we receive from Congress, the Army, 
and our own work force. Our programs include such services as Family 
Readiness Center, Volunteer Coordinator, School Liaison, Child and 
Youth Services, Family Assistance Center, Army Emergency Relief, 
Chaplains Helping Hand, to name but a few. The Family Readiness Group 
(FRG) system is a key element in the support of families. This 
organization provides the link between family requirements and the 
Chain of Command. That Chain of Command, better known as the Rear 
Detachment, is staffed with dedicated leaders at every level. The Rear 
Detachment structure and its high quality soldiers illustrate the 
steadfast dedication to excellence our deployed commanders place on 
insuring our families are properly cared for.
    Another vital program in supporting family readiness is providing 
child care services. Our continued expansion of child care 
opportunities is a daily challenge during times of deployment. Respite 
care is at a premium. With the increased demands of single parenting as 
a result of the deployment, it is evident that this is an area of 
increasing need. Availability of child care services, from hourly to 24 
hour service, is ripe for enhancement.
    It is not enough to bring services and make facilities available to 
our families. We must also provide a means to assist in educating our 
families, spouses, and soldiers. A key tool is the Army Family Team 
Building program. This program provides training to family members on 
military environment, financial readiness and goods and services 
available to them in order to function in the military structure. This 
program proves itself every day during deployments. Families and 
soldiers are better prepared as a result of this training.
    As we provide services and products to our families, none of this 
would work without a solid and regular communication process. Fort 
Campbell provides forums for our families and Rear Detachments to not 
only communicate with each other through family readiness group 
meetings, social settings and recreational opportunities, but through 
official channels as well. We hold a bi-weekly senior Family Readiness 
Group leader meeting. At this meeting are the primary representatives 
from the service areas and the Installation Chain of Command. Also 
attending are the Senior Spouses from the major units on post down to 
the Battalion level. These spouses/representatives provide the link for 
information flow back to families. Even though communicating official 
information is a command responsibility, this critical aspect of family 
support is an excellent way to insure maximum information distribution. 
The process of keeping the families informed of unit activities, 
surfacing issues in the family support arena, and providing a feedback 
loop is essential to sustaining current, accurate and timely 
information flow. Our Installation Rear Detachment Command and Staff 
meeting is a parallel effort that compliments our Bi-Weekly FRG. In 
this meeting, we focus on military business; but as previously stated, 
taking care of families is military business. As a result of these 
meetings and procedures, we have harnessed the collective intelligence 
in order to prioritize issues and redirect resources as needed. These 
meetings compliment our installation media and communication methods, 
like Fort Campbell Channel 9, Courier Post Newspaper, and local media 
venues.
    But with all the successes and magnificent support from Congress, 
our communities, Army, and Post systems; we do have areas that need 
attention. The most prominent of these lies in the child care arena. 
Specifically, respite care availability and facilities. Due to 
deployments, families become single parent households instantly. Even 
though our systems and facilities are in place to support the family, 
we lack enough capability to handle short-term child care on a 
recurring basis. Before the deployment, both parents would work the 
schedule. During deployments, that flexibility is gone. The problem is 
magnified with special needs children. We have one parent doing the job 
of two is the bottom line. If we could enhance the availability of 
respite care resources, it would qualitatively and quantitatively 
improve our family support.
    The second area needing attention is that of resources to 
facilitate improvement in our family support system. Dedicated 
facilities on Fort Campbell are at a premium, but dedicated family 
support facilities are necessary in order to provide a place for the 
myriad of family readiness/family support tasks to be accomplished. 
From FRG flyers to producing event calendars, having meeting space and 
providing child care are all requirements for successful programs. The 
Installation provides for these needs but not to the level we would 
expect for such an important part of soldier readiness. Unit areas are 
restrictive and often not available. Even though the installation 
provides space for our FRG's, the competition to support units and 
other priorities is so intense that it makes sense to consider a new 
facility for family support.
    Programs to leverage other sources of support are alive and well at 
Fort Campbell. An example of this is the support we receive from the 
Armed Forces YMCA. Donations from charities are wonderful and very 
generous but do not cover the requirements. Volunteers give back to our 
Installation literally millions of dollars in time each year, but we 
can do more. Dedicated full time support personnel in the family 
readiness business would be a tremendous sign of commitment and 
progress. Additionally, a family readiness facility certified for child 
care and having the ability to provide for the needs of our families 
and those that support them would be tremendous.
    In conclusion, our support structure is critical in maintaining 
soldier readiness. I personally and professionally am very proud of 
what For Campbell does in that effort. Our surrounding communities have 
embraced our soldiers and families like none other. This teamwork and 
mutual support is proof we are progressing in this effort. Fort 
Campbell is a wonderful place to live, work and play. When our soldiers 
are called to duty in a distant land, with the continued help from all, 
Fort Campbell will rise to the occasion and insure our family readiness 
will be every bit as high as the readiness of our soldiers.

              Prepared Statement of Hollister K. Petraeus

    Good afternoon. I'm Holly Petraeus, wife of Major General David H. 
Petraeus, the Commander of the 101st Airborne Division (Air Assault) 
and Fort Campbell, and I'm here today to speak to you as an Army wife 
of almost 29 years.
    You have asked ``how has the Army taken care of its soldiers' 
families during this deployment?'' My experience here at Fort Campbell 
has been a very positive one. The key element has been good 
communication between the deploying units, the military and civilian 
staff remaining here at Fort Campbell, and the volunteer Family 
Readiness Group (FRG) leaders. There has been a commitment to leaving 
high-quality officers back as Rear Detachment Commanders, and that has 
paid dividends. The Rear Detachment Commanders are our link to the 
units overseas, as well as having the power to resolve many issues here 
at home.
    Among the military remaining here on post, the Installation 
Commander has conducted bi-weekly information meetings with senior 
spouses and key FRG leaders. These have been a great venue for bringing 
up issues that concern us, and for hearing what the installation is 
doing to address those issues. Also, the post hospital has been very 
responsive to family concerns. They made every effort to bring in 
Reservists and civilians to quickly fill the gaps left by deploying 
doctors. They've done some special things for the moms who give birth 
while the dads are deployed, and they've also started up a fitness 
program for family members. The five chaplains who remain here have 
also done a wonderful job, continuing to run the regular religious 
programs while offering deployment-related counseling and also running 
a very successful charitable effort, Operation Helping Hand, which is 
used to help family members where Army Emergency Relief cannot.
    On the DoD civilian side, the people in Army Community Services 
(ACS) have been super. They run our Family Assistance Center, a ``one-
stop shopping'' for family members who need assistance while the 
soldiers are deployed. They also coordinate deployment-related training 
such as Army Family Team building. Other civilian activities which have 
played an important role have been: Morale Welfare and Recreation 
(MWR), which has worked with local charities and sponsors to provide 
some very well-attended free family functions such as monthly Family 
Fun Fairs; Child Development Services which runs our post day and 
after-school care; and our Fort Campbell Schools, which have not only 
addressed deployment-related issues with their own students, but have 
provided the local off-post school systems with training on how to 
handle deployment-related problems.
    I have to mention also the invaluable service of our volunteer FRG 
leaders. They are the command's link to the families, and although they 
are dealing at home with the same deployment issues as everyone else, 
they dedicate a substantial portion of their free time to reaching out 
to help others.
    Now, as to the question of what could be done better: I do feel 
that the Army is asking a great deal of our FRG leaders. They have no 
official status, but they bear a lot of responsibility. When Secretary 
of the Army White was here in April, he suggested that some of the key 
FRG positions should be salaried. These volunteers dedicate their time 
and often their own money, too, keeping in communication with family 
members over a far-flung area, and they should not only receive some 
reimbursement for that, but also have the status and protection of 
being official DoD employees.
    I'd also like to see more money available for child care during 
deployments. Young soldiers' spouses' will not come out for meetings 
and social functions if they cannot bring their children, and if we are 
to reach them with the information they need we must ensure that free 
child care is available on-site. As deployments go on respite care is 
also important. We are stretching our dollars and using charitable 
donations as well, but more funding in this area would be great.
    Another thing I think the Army (and all the services) can improve 
on is casualty notification, not so much for fatalities but for 
seriously and very seriously injured. This has caused a lot of 
heartburn for us here during this deployment, because of the lack of 
timely information coming from overseas. Sometimes the first notice a 
family has received has been a call directly from a doctor at a 
military hospital overseas, although there has been no information 
about the casualty sent to the division casualty office. On one 
occasion, a soldier who had been sent home for convalescent leave 
called from Nashville Airport looking for a ride--and that was our 
first indication that he had been returned to the United States! The 
problem has been particularly bad with soldiers treated in the Navy 
system. It has been almost impossible to get information on their 
status or their whereabouts. As you can imagine this has been very 
upsetting for the families. In this automated age we should be able to 
do a better job of tracking who is where and letting the family members 
know in a timely manner.
    On a larger scale, I'd like to address what Congress can do for us. 
Number one in the minds of many here is that we need more soldiers on 
active duty, particularly in certain key specialties. In recent years 
the Army has downsized while adding on more and more overseas missions. 
The obvious result of this is that many of our soldiers have been 
deployed repeatedly over the last few years. In this group, for 
example, my husband has been deployed 16 of the last 24 months and 
Gricell Medley's has been deployed 15 of the last 17 months. Many 
families in our Chinook helicopter battalion, our Military Police 
battalion, our logistics and our special operations units can tell the 
same story. This unrelenting pace of deployments is a retention issue. 
Families will not be willing to go it alone forever, with little relief 
in sight. By the way, I know that a House Committee is currently 
looking at the possibility of making some European and Korean tours 
unaccompanied unit rotations, and I can tell you that to the families 
that will be perceived as just one more deployment added to the load 
that they already bear.
    I would also ask Congress to let us keep our on-post schools. I 
know they are being reviewed, and I would like to say that they provide 
a high-quality and consistent education for our children who move from 
State to State, where the quality of education varies and where the 
local school districts are underfunded in the area of impact aid. A 
number of our schools here at Fort Campbell have achieved Blue Ribbon 
status, and they are valued accordingly by the families.
    In closing, I'd like to thank Senator Alexander for coming here 
today to let our voices be heard. I'm proud of the way our military, 
our families, and our local communities have worked together during 
this deployment, and I'd like that to be the main message that you take 
away today. Thank you.

                 Prepared Statement of Maj. Josie Fees

    Good afternoon. I'm Josie Fees, Program Operations Specialist and I 
am here today to speak to you on behalf of Ft Campbell's Child and 
Youth Services Program. I am pleased to say I am a military family 
member for over 33 years and with Child and Youth Services for 15 
years.
    I have been with Ft Campbell's Child and Youth Services for 3 years 
and I speak to you with a tremendous sense of pride. I first noticed 
Child and Youth Service's commitment to quality and high standards for 
families because the Child and Youth Services programs obtain national 
accreditation status--and that includes the Family Child Care homes. I 
then witnessed the overwhelming kindness on 9-11 when the U.S. was 
under attack and the installation immediately went into action to 
protect soldiers, their families and the civilian workforce.
    It was very difficult to get on or off the installation that day. 
Without hesitation, the Child and Youth Services staff volunteered to 
stay and to do whatever necessary to ensure that all the children were 
safe and that their needs were met until parents could pick them up. 
The School Age Services staff gathered the children who were remaining 
at the schools because parents not able to pick them up at the 
scheduled time in order to allow the teachers to go home. All the 
children were fed and involved in fun activities until the last child 
was safely picked up. Child and Youth Services staff stayed past 
midnight and arrived back at 5 in the morning to receive the children. 
The staff never once complained. There is a saying that ``the Army 
takes care of their own.'' Ft Campbell has proven that to me time and 
time again. I will share the one that really touched me.
    My husband left for the Sinai in January and his commander, CPT 
Himes told me before James left that if ever I need them just call. 
Just because James is gone we will still be here for you. To my 
surprise I received a call in February from CPT Himes letting me know 
he was deploying but wanted to give me the POC and number in his 
absence in case I needed anything. I know as a commander he had a lot 
going on due to the deployment yet he remembered about a family member 
who was no longer in his unit. It was such a wonderful feeling to be 
apart of such a great installation. Now with the division deployed how 
has Child and Youth Services supported deployed families?
    Beginning with the mobilization phase, a parent notified the Child 
and Youth Services Manager on Feb 10, 2003 that they had a need for 
extended childcare due to the mobilization mission requirements. 
Extended care was established immediately the same day. Child and Youth 
Services offered extended care evening weekends and holiday at no cost 
to the parent so that the soldiers could focus on their mission 
requirements.
    Since the deployment Child and Youth Services continue to provide 
contingency services so that soldiers and family members are at ease 
knowing their child care needs are met. Child and Youth Services 
provided on-site childcare for Family Readiness Group meetings both 
during the mobilization and the deployment. We also provided many 
evening briefings to explain childcare options available to family 
members. Child and Youth Services provided training for units that want 
to do their own childcare through a program called Volunteer Child Care 
Unit Setting. We offer respite care to family members due to deployment 
issues. The Family Assistance Center offers childcare that is being 
provided by Child and Youth Services staff. Family Child Care provides 
emergency care for military families due to deployment issues. Social 
Work Services will coordinate placement of children with a provider 
designated to providing emergency care. Emergency care providers are 
available 24 hours a day. All programs are allowing parents the 
flexibility to withdraw children and take vacations as needed without 
the parent having to pay to hold their slot.
    Child and Youth Services provided many family services in April 
during the Month of the Military Child including a ``Pamper the 
Parent'' day where parents were treated to free facials, haircuts, and 
manicures. Child and Youth Services participate in Fort Campbell's 
Family Fun Fairs. School Age Services sponsored the Americas Kids Run 
held 17 May 2003. The free event was a huge success for children and 
families at Fort Campbell. There was an essay contest titled ``I am a 
Military Child''. Winners received special prizes and were invited to 
read their essays at the Volunteer of the Month Ceremony at the Eagle 
Conference Center. School Age Services have implemented a program to 
help children with deployed parents stay connected by setting up maps 
at all 6 satellite sites so that the children can map where their 
parent are around the world. The staff at the childcare centers is 
helping the children put together scrapbooks so the parents will have 
pictures of the events they missed out on while they were deployed. The 
teen program has taken an active lead on mentoring the younger children 
and volunteering in the community in support of deployed families.
    Sports and Fitness program depends largely on volunteer coaches and 
since many of them are soldiers the deployment has caused a shortage of 
coaches for the children/youth. Fortunately spouses along with some 
Child and Youth Services staff stepped up and volunteered to coach the 
children/youth sports. This ensured no interruption in the youth sports 
program. These are just a few of many examples of the partnerships with 
Child and Youth Services and other Community Activity Based Centers 
strong sense of commitment and dedication to our military families 
during this deployment.
    Child and Youth Services is a large employer of family members. We 
recognize that the support internal as well as external is very 
important during deployments and I have to say Ft Campbell has does a 
fantastic job. We provide training for the staff so they can recognize 
and understand the affects deployment has on children. We provide 
stress training for staff since many are family members facing the same 
deployment issues themselves. Many such as myself who have been a 
spouse during Desert Storm/Desert Shield and Just Cause, are able to 
support the younger family members going through it the first time. We 
understand the unique challenges that come with deployments.
    What can Child and Youth Services do better to meet the need of our 
deployed families and what type of support does Child and Youth 
Services need in order meet their needs?
    Because the Child and Youth Services program has a mobilization and 
contingency plan in place, we are able to implement it as soon as the 
need for need for extended child care arises. With even more advanced 
notice from the command of the mobilization of the division, we can 
implement sooner rather than later if parents express a need for the 
extended hours care.
    We appreciate the support Congress has provided to the Child and 
Youth Service Program and we will continue to maintain our ``model for 
the nation'' status with your support. We continue to be able to 
provide a safe, healthy nurturing program for young children and offer 
our youth a safe place with fun activities to go to instead of being 
home alone.
    In closing I would like to say as a very proud Ft Campbell family 
member and representative of Child and Youth Services thank you for 
allowing us the opportunity to tell you about our outstanding 
installation and some of the things we do to show families come first. 
As well as what we need to do to improve the quality of life for 
military families during deployments. The genuine concern that congress 
has for our military communities means more than I can express.

                  Prepared Statement of Willa Garrett

    Hello. I am Willa Garrett, Fort Campbell Child and Youth Services 
School Liaison Officer (SLO). I feel quite honored to address you on 
the support services offered to families during this deployment. Along 
with serving as a vehicle for information for parents, students and 
schools, my responsibilities include collaborating with local schools 
and installation organizations to facilitate the education transition 
experience for our children. Below I provided the following information 
on our schools and the support offered to our families during the 
recent deployment.
    SCHOOLS: At present, the majority of Fort Campbell married soldiers 
live off the installation in cities located in Kentucky and Tennessee. 
Consequently, more than half of Fort Campbell's school-age children 
(averaging 8,000) are educated in off-post schools.
    Currently, the installation has five Department of Defense Domestic 
Dependent Elementary Secondary Schools (DDESS) Schools located on the 
installation--five elementary schools, two middle schools, and one high 
school. Each year, the Fort Campbell School District serves over 4200 
students that reside on the installation. Each of the schools offers a 
half-day 4-year old program and full day kindergarten based on National 
Association of Education for Young Children standards. The schools 
utilize the Department of Defense Education Activity (DODEA) curriculum 
that is based on national standards.
    Fort Campbell Schools have received several distinguished awards 
such as the US Department of Education School of Excellence Award--the 
Blue Ribbon Award for overall achievement. Fort Campbell's Parent 
Partnership Program is considered one of the best in the nation, and 
was researched by Vanderbilt University in relation to student 
achievement, ``March Toward Excellence: School Success and Minority 
Student Achievement in Department of Defense Schools'', Report to the 
National Education Goals Panel. At the onset of the deployment, Fort 
Campbell Schools readily offered training for their staff and parents.
    Clarksville/Montgomery County School System of Tennessee serves 
almost half of our school-age population. Active duty military-
sponsored students comprise more than 23% of CMCSS total enrollment. 
The school district provides cutting edge technology for students by 
offering Distance Learning Labs, Video Broadcasting Classes, Mobile 
Technology Labs, Automated Libraries, and a Junior Technology Program. 
CMCSS administers the Terra Nova Test to evaluate student achievement, 
and has consistently scored above state and national averages in all 
academic areas. The school system brings business into the high school 
classroom to give students work experiences through internships, co-op 
opportunities and job shadowing. The district has received many awards. 
These include ``Expansion Management'' magazine's blue ribbon award for 
outstanding achievement, chosen by School Match, a service company for 
parenting magazines, Governor's A+ Award for three consecutive years, 
and recognized as best in Tennessee for three years. Counselors 
conducted individual and group counseling sessions for children of 
deployed parents. Some schools also conducted parent workshops with 
free childcare to assist with the stress of the deployment.
    Christian County Public Schools in Kentucky educate approximately 
1100 military-sponsored students each year. There are eleven elementary 
schools, three middle schools, and two high schools in Christian 
County. All of the Christian County schools are accredited by the state 
of Kentucky and the Southern Association of Colleges and Schools. In 
addition to the traditional educational settings, programs are offered 
at a career & technical center, a day treatment center, an alternative 
school, a preschool center, an optional high school, and an Adult 
Education Center. Christian County consistently seeks opportunities to 
support the military by sponsoring events such as ``Salute to the 
Military.'' This past year, the School Liaison Officer served on the 
district's Barriers to Learning sub-committee for the Consolidated 
Training Plan for Teachers. As a result of the committee's commitment 
to children, the board voted to provide awareness training targeting 
the unique factors of educating military students. During the 
deployment, many schools made phone calls to individual families to 
offer support as needed.

    CONTINUITY OF EDUCATION WHEN FAMILY IS TRANSFERRED: Continuity of 
education for students that are transitioning to and from the Fort 
Campbell area has improved greatly over the past three years. Through 
the positive relations and communication established through the School 
Liaison Officer position, together with the local school districts have 
developed a greater understanding and sensitivity about the challenges 
that military-sponsored students incur as a result of transitioning 
from one school district to another. Fort Campbell Schools were part of 
the original nine school systems involved in a study commissioned by 
the Army and conducted by the Military Child Education Coalition 
Military Child Education (MCEC) Secondary Education Transition Study 
(SETS).
    Since the initial study, the School Liaison Officer and the Fort 
Campbell Schools have been working with the local school districts of 
Clarksville-Montgomery County and Christian County to develop a local 
action plan that makes transitioning for all mobile students a more 
seamless venture for students and their families. Fort Campbell, 
Clarksville and Christian County Schools consistently work to ensure 
children who move have the same advantages and opportunities as those 
children who remain in one location for their entire school career. 
Efforts are being made to help families move with greater ease and 
remain in the area when it seems that the move is harmful to children.
    The area schools have implemented some of the following measures to 
ensure a smoother transition of students into the area: 1) Enrollment 
information is available on district web sites; 2) Enrollment 
information is available on the local TV station and in the newspaper 
during the summer; 3) Student Ambassadors assigned to new students once 
school starts; 4) If a student transfers as a senior, counselors work 
with the new school to ensure graduation without delay. 5) Schools 
provide transitioning student with an unofficial copy of their 
transcripts to allow for immediate placement upon arrival at the new 
school. At the installation, soldiers in-process through the School 
Liaison Office to receive first-hand information about area schools and 
child care and youth programs. Soldiers also out-process through the 
School Liaison Office to ensure local school clearance. Also, many 
soldiers have requested and received approval for stabilization for 
their high school junior or senior to allow graduation with local 
class.
    To prevent loss of credit and access to opportunities, many 
transition efforts have been considered and implemented in each of our 
school districts. Fort Campbell Schools have incorporated many programs 
to ease the transition of students. To name a few: 1) Implementation of 
the Chart Your Course Program to assist students who are transitioning 
to high school; 2) Summer enrollment counselor works June and August as 
well as being available two days a week in July to help new students in 
their class selection; 3) A transition lab established to help new 
students catch up in classes in which they may be behind or need to 
earn credit; 4) All grades are given both as number grades and as 
letter grades; 5) The Interactive Counseling Center (ICC) is becoming a 
great tool for assisting with tryouts, interviews, and record reviews; 
6) Stabilization letters are written in support of parents who have 
juniors/seniors that are nearing high school completion.

    WHEN THERE IS A TRAGEDY IN A CHILD'S LIFE, ARE THE TEACHERS 
EQUIPPED TO DEAL WITH IT? In support of the recent deployment, the Fort 
Campbell Schools did an excellent job of providing training for their 
counselors and those of a neighboring school district. The School 
Liaison Officer (SLO) partnered with post hospital's Chief of 
Psychology and the psychologist for the Soldier/Family Health Readiness 
Program to offer coping strategies to the counselors, teachers and 
administrators of the off-post school district. The ultimate goal was 
to furnish the educational staff with information needed to fully 
support our children during such a critical time.
    Half day training sessions were conducted and specifically 
addressed the following:
    Information about services provided by the Family Assistance Center 
(FAC)
    Presentation on 'Deployment, Stress, Families and School' that 
addressed identifying stress in adults and children, as well as ways to 
assist children in dealing with such frustrations.
    Suggestions for dealing with the reunion cycle of the deployment, 
as well as what to expect during this phase.
    Current childcare opportunities and youth activities sponsored by 
Child and Youth Services, along with many other support services on the 
installation such as the YMCA Coop Nursery and the Chaplains Operation 
Helping Hand.
    Recommended hands-on activities for children.
    Information/recommendations were also offered on developing 
emergency contingency plans.
    During this most recent deployment, it has been quite obvious that 
each of our Secondary Education Transition Memorandum of Agreement 
Signatories are serious about their commitment to our children. 
Superintendents, principals and counselors welcomed information about 
how to work with our children during this time. Teachers and counselors 
were extremely positive and demonstrated a genuine interest in the well 
being of our military-sponsored children.

    FAMILY INVOLVEMENT: Fort Campbell, Clarksville and Christian County 
Schools offer periodic parent sessions and family involvement 
opportunities throughout the school year. Military parents are invited 
to participate in local Parent Teacher Organizations, as well as site 
based council meetings to assist in making meaningful decisions about 
how their schools are run.
    Child and Youth Services staff coordinate briefings for parents on 
child development (age and stages) and stress management. Parent 
advisory groups for full day and preschool enrolled children have 
quarterly meetings to look at program improvements and share 
information. Training opportunities and family oriented activities are 
frequently communicated to each school district.
    The School Liaison Officer serves on the Family Resource Youth 
Service Center advisory board for a Christian County school that has a 
predominantly military enrollment. The Family Resource Center is 
designed to promote the flow of resources and support to families in 
ways to strengthen their functioning of individual members and family 
unit. The center's focus is on education to enhance parenting skills, 
education for preschool parents and their children, health services or 
referral to health services, GED (for adults) and literacy based 
programs for students and adults and programs promoting family 
activities.
    Thank you for the opportunity to speak on behalf of our children 
and schools. Fort Campbell continues to provide excellent support 
services to the families of our deployed soldiers. The teamwork 
displayed by each one of our support agencies was definitely 
commendable, and was what I consider to be a demonstration of true 
dedication and commitment. I am most grateful to be a part of the Fort 
Campbell family, as it has afforded the opportunity to make a 
difference in the educational experience of our children and support 
mission readiness.

                  Prepared Statement of Robert E. Vail

    Good afternoon, I am honored to provide input to these field 
hearings on how well the Army serves our soldier's families and 
children during a major deployment. As Director, Community Activities 
Business Center, I am responsible for administering the Morale, Welfare 
and Recreation (MWR) programs at Fort Campbell as well as the Army 
Community Services (ACS), Army Substance Abuse Program, Lodging and 
Continuing Education Programs.
    The support Fort Campbell has been able to provide to the families 
and children has been outstanding. I attribute this to the great 
programs that the Army has in place to provide this support, a 
tremendously supportive surrounding community, an installation 
commander and garrison commander who care, and excellent communication 
with the families, primarily through the Family Readiness Groups 
(FRGs). We have successfully improved processes as a result of lessons 
learned in Desert Shield/Storm. Many of these improvements have come 
from getting input from the families that we are supporting and the 
senior FRG leaders have been a great source of ideas in this regard.
    I will summarize some of our successes:

    COMMUNICATION TO THE FAMILY MEMBERS: This has been a huge success 
and has started at the top. The Installation Commander holds routine 
meetings with the spouses of senior leaders and the leaders of the 
primary FRGs. We make extensive use of that forum as well as the 
mailboxes at the FRC to alert family members of opportunities available 
to them, both on and off post. The Rear Detachment Commanders have also 
been a great conduit of information to the families.

    FAMILY ASSISTANCE CENTER (FAC): Upon deployment of the soldiers, 
the Garrison Commander directed the stand up of the FAC to provide a 
``one-stop shop'' to provide virtually all assistance a family might 
need. The FAC is located in the Lee Family Center, a building that 
already houses most of the ACS functions. Personnel from Finance, 
Personnel, Legal Assistance, Tri-Care and Health Services joined Army 
Emergency Relief, Exceptional Family Member Services, Relocation 
Assistance, Employment Assistance and other services already in the 
building. Family members also have immediate access to information on 
Child and Youth Services, Community Mental Health, American Red Cross, 
Housing, Transportation and the Chaplains Office. A food closet and 
emergency housing assistance are also available at the center, though 
the latter has not yet been needed. On site childcare is provided at no 
charge so the parent could seek assistance without the distraction of 
tending to the needs of their children. We also have a toll free number 
in order to provide assistance for family members living outside of the 
Fort Campbell Community. This center has been especially important for 
the families of Reserve Component Soldiers that have little on-going 
contact with the military community.

    FAMILY READINESS GROUP (FRG) SUPPORT: We have long had a Family 
Readiness Center (FRC) to support our FRGs. The center includes a 
meeting area, mailboxes for over 200 groups, public access computers, 
printing support, copier support and training materials. Upon 
deployment, the Commanding General (CG) immediately directed that we 
increase the funding for this center to support the increased printing/
copier demands to maintain communication with the families and to 
provide training materials for the FRG deployment meetings. Additional 
copiers were made available as well to meet the demand. Our goal is to 
expand this facility even further, to include providing more space and 
on site child care.

    ARMY FAMILY TEAM BUILDING PROGRAM (AFTB): This program, which 
provides training to family members on the military environment, 
financial readiness and the like, proved its worth during the 
deployment. Families are better prepared than they might otherwise have 
been. Further, with the training modules in place they are able to 
export training to groups as needed.

    CHILD DEVELOPMENT SERVICES: Fort Campbell's childcare and youth 
services are exemplary in normal conditions and they have proved 
themselves capable of providing exceptional services in extraordinary 
conditions. As we became aware of the need for expanded services needed 
due to deployment preparations, we immediately expanded the hours of 
the Child Development Centers, at no additional charge to the parents. 
This included nights, weekends and holidays as needed. As stated above, 
we set up a satellite childcare facility in the FAC, also at no charge. 
When the Family Readiness Groups (FRGs) needed to meet on deployment 
issues we provided free childcare for them, either on site or at the 
centers. Family Child Care Homes proved to be a special asset. These 
providers were available to care for children 24 hours a day. In some 
cases they are also included in soldiers' Family Care Plans as the 
primary custodian of the children. This is especially important for 
single and dual military parents.

    ENTERTAINMENT EVENTS: MWR was able to gain sponsorship from 
businesses and charities to provide monthly, free of charge, ``Family 
Fun Days'' at various activities on post. These events incorporate 
things like fire safety emphasis with games for children and free food 
and drinks. They have been very successful with as many as 3500 
participants and have garnered extremely positive feedback. We have 
conducted these events since March when it was done concurrently with 
the opening of a new Fire Department in the Lee Village housing area. 
The April event was held at Hooper Bowling Alley and the May event at 
Destiny Parks and Pavilions/Horse Stables. All events include 
information booths on such things as Safety, Continuing Education 
Opportunities, Library Services, etc. as well as inflatable games for 
the younger children, dunking booths, climbing walls and the like.

    CROSS LEVELING OF RESOURCES: We were able to divert personnel from 
activities that have a primarily soldier support function to those with 
a family support function, which kept our costs down significantly. For 
example, some of the government employees that normally work on drug 
prevention classes in the units were diverted to the FAC when their 
workload decreased due to the deployment. Likewise, some of the 
government employees involved in soldier education counseling were also 
diverted to the FAC. Having these resources available helped 
tremendously, but would have been CRITICAL if the Family Assistance 
Center had had to open on a 24 hour a day basis, which we were prepared 
to do upon demand.

    REFOCUSING OF SOLDIER FACILITIES/SERVICES TO FAMILIES: We made a 
special effort to refocus facilities and services that were in place to 
support the soldiers to benefit families and youth. For example:
     Fort Campbell has six Physical Fitness Centers that exist to 
support soldier fitness/readiness. We focused on the family's needs and 
family usage was up about 43%.
     We have two exceptional softball complexes with four fields each 
that are dedicated primarily for soldier intramural sports. Since the 
demand from units is down, we have reconfigured one of the facilities 
for youth sports programs.

    COMMUNITY SUPPORT: This has been absolutely outstanding. Various 
organizations have raised about $200,000 in support of the families 
living in the Fort Campbell community. Some of these funds have been 
provided to support MWR events such as the Family Fun Days, events at 
the on-post schools, childcare in exceptional circumstances, and the 
individual needs of soldiers and their families. We have even had to 
designate a ``Donations Manager'' to keep track of the outpouring of 
support. Individuals and businesses have asked to ``sponsor'' a family; 
we have literally gotten truckloads of products for ``any soldier'' or 
for their families. There is no question that the surrounding 
communities support the soldiers, families and especially the kids.
    Naturally there are things that could be done better:

    CHILD CARE: Upon deployment there is a critical and almost unending 
need for childcare. First and foremost, the soldier needs to get his/
her unit ready to deploy so they cannot be released from work at the 
usual time and need expanded child care. They often need weekend and 
holiday child care as well. Family Readiness Groups need to have 
meetings to help the families prepare for deployment and to keep them 
informed. There is a need for childcare in the Family Assistance Center 
as mentioned above, and also emergency childcare, especially in the 
event of casualties. There is also the need for respite care for the 
parent that has no break and no assistance in their parental 
responsibilities. Congress has provided resources for ``contingency 
related child care''. Often, the installation must provide the services 
and reimbursement comes after the fact. This is not the best way to 
manage operations, but supporting soldiers is the goal. Quicker 
reimbursement would ease the burden on the installation.

    SUPPORT FOR EXCEPTIONAL FAMILY MEMBER CHILDREN: EFMP childcare 
needs often cannot be provided for on post. For example, we had a 
family with four special needs children; two were diabetic and required 
insulin injections. Government child development facilities are not 
staffed with the medical personnel authorized to administer shots. The 
respite care for this family had to be provide off post, and but for 
the Chaplain's Fund, we would have been unable to meet the needs of 
this family.

    FAMILY READINESS CENTER: As stated, this is a great initiative to 
support the FRGs. Because we had an FRC in place, the transition to 
deployment conditions was relatively easy. One shortcoming was the lack 
of some specific resource materials that are not available through Army 
channels. FRGs and families voice the need for and value of some books, 
comic books, coloring books, etc. that help explain the departure of a 
parent to their children. Some of these materials cost as much as $5 
each and we are unable to devote the necessary resources to stockpile 
or reproduce them by the tens of thousands needed. Recommend that 
``deployment kits'' for FRCs with these materials be made available 
copying the kits that the library system stockpiles for use during 
deployments This is a critical need, and is often overlooked (over 
20,000 paperbacks were handed out to soldiers as they deployed.) This 
would provide a ready supply of deployment materials and could be used 
during major deployments at any impacted installation.
    In closing I would like to say that it is these family support 
services that are key to keeping families in the area where they can be 
better nurtured, and kept aware of the information they need to have. 
They also serve to help with long-term retention of our great soldiers. 
I am extremely proud of what CABC, the post, as a whole and the 
surrounding communities have done to put their arms around the military 
families. Fort Campbell is a great place to live, work, play, and when 
the need arises, be supported during a deployment.

               Prepared Statement of Maj. Joyce Dolinish

    Deployment issues are a key topic to all military families. As part 
of a volunteer force, individuals choose the life of a soldier because 
they believe that they are part of an organization that can make a 
difference in the world and in them as individuals. Their career choice 
is not an easy one--for them or their family. The money is not great, 
the housing often substandard, the relocations difficult, and the time 
away from their family increases yearly. Yet they remain on duty, 
serving despite hardships, proving again and again that they are the 
best Army in the world.
    While the families feel nothing but pride and support for all 
soldiers, they all at some point begin to question when the constant 
separation becomes too much to bear as a family. Within our Group, 
units redeployed from Afghanistan only to begin preparation for 
deployment to Iraq. As we make plans for welcoming home soldiers 
returning from Iraq, we are planning the departure ceremonies for units 
re-deploying to Afghanistan. We continue to hear plans to further 
reduce the size of the Army and know that our soldiers will spend even 
less time with their families. We hear of efforts to change accompanied 
tours to Europe to a ``rotation''. . . a friendly euphemism for another 
deployment. Most Americans think that a military mission is done when 
the press stops reporting it--families know that it takes years to 
complete the job and bring everyone home. Pride and loyalty hold the 
military family together--but at some point in the near future soldiers 
may face ultimatums from their families as the amount of time together 
becomes less than the amount of time apart.
    I believe that the issue of single parents or both parents facing 
deployment is being viewed from the wrong angle by most observers. The 
Army is a voluntary career choice and all single soldiers or dual 
military couples with children are at all times aware of the potential 
for deployment and are required to provide extensive legal 
documentation of a valid care plan that will activate upon deployment. 
If they can not provide this plan they are released from active duty. 
The parents who deployed had plans in place and executed them. The real 
problem is the number of soldiers whose care plans, when notified of 
deployment, suddenly were not valid. These soldiers knowingly, 
willingly lied to their command and provided false legal documentation. 
The units deployed without these soldiers, perhaps compromising their 
mission. Soldiers are informed adults who must make difficult decisions 
regarding their families. The life of a soldier is not an easy one, 
especially for single parents or dual military couples. If they decide 
to pursue it, they must be prepared for separations and have a valid 
plan to care for their children. If they do not have someone they 
trust, ready to assume the role of parent at any time requested, they 
must pursue another career. Civilians make job decisions based on the 
amount of time they will be away from their family--soldiers must make 
the same tough decisions. The Army life is not for everyone.
    Contrary to popular belief, the return of a soldier from a long 
deployment is more difficult than their departure. Redeployment 
briefings are normally offered at family readiness group (FRG) meetings 
when rumors start that soldiers are coming home. FRG leaders hope that 
each family will attend at least one briefing, but can not enforce it. 
FRG leaders, chaplains, and social workers from the hospital jointly 
present these briefings, but there is no standard format or books to 
use. The resources available on military installations are insufficient 
to provide the ongoing support needed by many soldiers and their 
families.
    On-post schools are one of the positive aspects of a deployment and 
military life. Children are surrounded by peers going through the same 
thing they are. Teachers and counselors are experienced with 
deployments and trained to watch the children for signs of excessive 
stress. Teachers have constant access to families and support from 
military units and the installation. Exceptional discipline is 
maintained, in part because the military parent can be held accountable 
for their child's actions. Fort Campbell is fortunate to have 
outstanding community support--but the off-post schools can not compete 
with the on-post schools' ability to prepare children for the constant 
deployment and redeployment of soldiers. Funding continues to be 
reduced for on-post school systems at a time of increasing soldier 
deployments--when they can least afford to cut corners or reduce 
programs. A bare bones educational system is not enough for the 
children of soldiers. The funding to ensure that teachers and 
counselors are trained and available in sufficient numbers to meet the 
students' needs is critical on all military installations.
    On-post schools are also better prepared to ensure the continuity 
of education for each child as a family transfers throughout a military 
career. Department of Defense guidelines ensure that all schools on 
military installations have similar curriculums. Improvements have been 
made and agreements coordinated with many off-post schools near 
military bases to ease the transition of military students. However, 
gaps continue to occur. Constant moves are extremely difficult on 
children--gaps in curriculums or the calculation of credits for 
graduation make the moves even more traumatic.
    The most positive aspect of this deployment has been the way that 
the installation, military rear detachments, families and the local 
community have pulled together. Large scale deployments are difficult 
on everyone. Communication and mutual support has been outstanding. 
Most military families are extremely self sufficient, but they need to 
know what is going on. The relatively few families that needed support 
(emotional, health, financial) received the help they needed quickly 
and from many sources. A positive environment willing to listen and 
assist when needed was immediately established and maintained.
    The key negative areas of this deployment were casualty 
notification and tracking of casualties in the medical system. Embedded 
media provided real-time coverage of events. Families knew immediately 
that an accident or casualty had occurred and by watching closely could 
often narrow the event to a specific unit. While no one argues that all 
casualty notification must be 100 percent accurate, the time from the 
incident until the Department of the Army approves notification of the 
next of kin is unacceptable given today's media and communication 
capability. (A death in our Group occurred at about 5 a.m. local time--
approval to notify the wife was received too late to notify her that 
day, but by the 6 a.m. notification the next day the spouse had already 
been called from Iraq.) Injured soldiers are nearly impossible to track 
in the multi service medical system. Today's military family demands 
and deserves a casualty notification system that recognizes the impact 
of instant media and communication.

                  Prepared Statement of Gricell Medley

    Senator Alexander (Distinguished Members of Congress)--good 
afternoon! Thank you for allowing me this opportunity to talk to you 
today about our family's experience with the military.
    My name is Gricell Medley. My husband, Major Lee Medley, is the 
Commander of a CH47 Chinook Helicopter Company in the 7th Battalion, 
101st Aviation Regiment. We have been married nine years and have been 
blessed with two young daughters, Lia and Emma.
    I met my husband during his service in Panama. We married in 1994. 
The challenges of being newlyweds from two different cultures created a 
special bond between my husband and I. The main reason we've stayed in 
the Army is because my husband loves his job and serving our nation. 
Some of the other reasons we've stayed are because of the excellent 
medical care, career advancement, continuous training, retirement 
benefits, on-post housing, DOD schools and sense of community.
    My husband took command of his company in 2001. As the Commander's 
wife, I assumed the role of the unit's Family Readiness Group (FRG) 
Leader.
    Since Desert Storm the Army has continued to place emphasis and 
importance on the Army's FRGs. I think this is one of the things the 
Army has done well in the business of taking care of soldiers and their 
families. Simply defined the FRG consists of volunteers, usually the 
spouses of the soldiers working together to provide assistance and 
information to all families and single soldiers within the unit. It is 
important to remember that everyone is welcome to participate 
regardless of his or her rank. Above the company level we join with the 
FRG from our higher headquarters supporting the larger efforts and 
beneficial projects. Our FRG organizes informational briefs for the 
spouses, updates and disseminates information about deployments, 
welcomes new spouses, visits hospitalized family members and soldiers, 
and plans Easter Egg Hunts and other special events. In my opinion the 
most important role of the FRG remains information management. Without 
our dedicated volunteers FRGs would not function.
    While the FRG is a great strength of the Army, we could do better 
by actually funding the FRG program with paid personnel to provide 
continuity and stability for the unit.
    One of the things the Army needs to take a closer look at is the 
price the op tempo takes on its soldiers and family members. The 
operational tempo of the Army has increased over the last decade while 
the divisional strength of the Army has decreased. In other words, more 
missions and more deployments with fewer people, especially in certain 
fields like Chinook helicopter units.
    I would like to take a moment to tell you how these increased 
deployments have affected my family. Our youngest daughter, Emma is 
seventeen months old. My husband has been deployed fifteen of those 
months. He has been deployed to Korea, two JRTC rotations in Fort Polk, 
Afghanistan for eight months and to Iraq since March of this year. He 
was only home for 21 days between Afghanistan and Iraq. The majority of 
that time was spent training and preparing his soldiers for 
redeployment. While I am extremely proud of our soldiers and families 
these numerous separations and deployments to stressful environments 
have taken an enormous toll on our Army families. I am afraid it is a 
retention issue for our young officers and enlisted personnel. Many of 
them get out of the Army because they don't like the repeated 
separations from their families.
    I mentioned to you that my husband's company spent eight months in 
Afghanistan. I would like to make sure that you know that 7th Battalion 
of the 101st has maintained all of the Chinook personnel rotations in 
Afghanistan since January 2001. C Company currently in Afghanistan was 
previously there for four months, home for 2 months and then returned 
to Afghanistan in December of 2002. We do not know when they will 
return.
    This ``unknown'' is one of the frustrations that soldiers and their 
families face. We don't know when they will return home or what their 
recovery time will be. In addition, I have read in the Army Times about 
the Army's plans to send fewer families to Europe and Korea and instead 
rotate battalions for 6-month deployments. To our family we see that as 
``one more deployment''. My family hopes that change never happens. We 
would much rather go as a family for two or three years. It is very 
important to us to keep our family together as much as possible.
    Again, thank you for taking the time to listen to my comments 
today. I feel honored to have had the opportunity to share my thoughts 
with you and appreciate your interest in improving the quality of life 
for our Army families.

                Prepared Statement of Michelle M. Taylor

    Hi. My name is Michelle Taylor, my husband Kirk is a Major in the 
Division's Plans Section. As an Army wife of 15 years and geographic 
single parent for two of the last three years, I'm here to share my 
thoughts and observations concerning support for the families of 
deployed soldiers.
    Overall, I have to commend the efforts of the Installation staff 
and leadership. I am convinced that they have all put their best foot 
forward in attempting to handle the myriad of issues that arise when an 
entire Division deploys. Army Community Services and the Family 
Assistance Center are both examples of the larger effort to take care 
of the families and communities left behind. In addition, the hospital 
has remained responsive despite the deployment of many of its medical 
staff.
    However, the lynchpin of support is provided through the family 
support groups that exist to support families at the grassroots level. 
This is essentially a self-help resource in that the more a spouse 
attends and participates, the greater the benefit he or she receives. 
Family support groups exist year round and the familiarity it breeds 
amongst its members aids in the early identification of families who 
are in need. This early ``screening'' helps the more experienced group 
members steer others to resources before the situation becomes a 
crisis. I have been frustrated at times by the seemingly lack of 
information flow down to the company-level, but I suspect that the 
problem resides largely in the adage ``We don't know what we don't 
know.''
    Another source of enormous support resides in our church 
communities. As you might expect, many of the post chaplains (including 
all the Catholic chaplains) deployed in support of the troops. The 
foundation of community that resides uniquely in our church community, 
regardless of faith, has truly helped to catch family members who fall 
through the family support group safety net.
    Lastly, the local communities of Clarksville, Oak Grove and 
Hopkinsville have responded in their always gracious manner. The 
knowledge that the community at large values the sacrifices of both the 
soldiers and their family members is reassuring and takes a little of 
the sting out of the series of separations we've recently experienced.
    The most obvious response as to how you and your fellow members of 
Congress can help is easily summed up in one word: Money. More 
specifically, we need help in several areas to include:
     Improvements in the Tri-Care System and delivery of health care 
services. The long wait for non-life threatening (but essential to 
quality of life) care is unacceptable.
     Changes to the maintenance and development of on-post housing is 
also needed. As an off-post family (the result of a 12-month waiting 
list upon arrival to Fort Campbell), gaining access to several of the 
available programs is problematic.
     Funding for childcare facilities is also needed. Spouses with 
young children are far less likely to attend family support group and 
other like organizations when they have to also spend their meager 
disposable funds for child sitting services.
     While the Government has relieved soldiers in the Iraqi theater of 
war of the Federal tax burden, others are not so lucky. Many hardship 
(unaccompanied) tours do not enjoy the same relief. A good example is 
our forces serving in Korea. Despite my husband's commitment to living 
a very Spartan lifestyle during his last tour, the assignment to Korea 
was a financial hardship based solely on the need to maintain two 
``households''. This additional financial burden was managed on a 
Major's salary, but the same cannot be said for our younger soldiers 
and families.
    Lastly, I'm tired. I would not trade the friendships and 
experiences that our family has enjoyed as a result of my husband's 
service, but the pace of deployments has reached a point that I 
personally find unacceptable. I'm proud of Kirk's service to our 
Nation. He is my hero, but he is also a husband and father. The Army 
needs people like my husband to lead soldiers where it matters most, at 
the tactical unit level. I will accompany Kirk where the Army sees fit 
to assign him next, but I will not encourage another move to a tactical 
unit. I find that sad, but the bottom line is that assignment to a 
Divisional unit right now is a near guarantee of prolonged separations 
with little hope for change in the near future.
    Senator Alexander, thank you for joining us and allowing us to give 
voice to our concerns. The Army is a close knit family, and when 
possible we take care of our own. Whatever help you and the members of 
Congress can provide is greatly appreciated. Thank You.

    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]


</pre></body></html>
